<html>
<title> - WELFARE REFORM AND CHILD SUPPORT IMPACTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]




 
                WELFARE REFORM AND CHILD SUPPORT IMPACTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 24, 1998

                               __________

                           Serial No. 105-110

                               __________

         Printed for the use of the Committee on Ways and Means

                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman
PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
                     A.L. Singleton, Chief of Staff
                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman
DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              
                                                                   Page
Advisory of August 17, 1998, announcing the hearing..............     2

                               WITNESSES

Del Papa, Hon. Frankie Sue, Nevada Attorney General..............    32
Evans, Hon. Jan, Assemblywoman, Nevada State Assembly............    26
Gibbons, Hon. Jim, a Representative in Congress from the State of 
  Nevada.........................................................    22
Halterman, Lonnie, Sparks, NV....................................    53
Leeds, Thomas L., Eighth Judicial District Court of Nevada.......   112
Miller, Hon. Robert J., Governor, State of Nevada; as presented 
  by Charlotte Crawford, Nevada Department of Human Resources....    22
Nevada Partners, Inc., Mujahid Ramadan...........................    94
Nevada State Welfare Division:
    Nikki Firpo..................................................    89
    Myla C. Florence............................................58, 117
    Michael J. Willden...........................................    82
Washington, Hon. Maurice, Nevada State Senator...................    24
Wilcox, Dorothy, Reno, NV........................................   100

                       SUBMISSIONS FOR THE RECORD

Bryan, Hon. Richard H., a U.S. Senator from the State of Nevada, 
  statement......................................................    19
Reid, Hon. Harry, a U.S. Senator from the State of Nevada, 
  statement......................................................    16


                WELFARE REFORM AND CHILD SUPPORT IMPACTS

                              ----------                              


                        MONDAY, AUGUST 24, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m., in the 
Nevada State Capitol, room 2134 of the Legislative Building, 
Carson City, Nevada, Hon. E. Clay Shaw (Chairman of the 
Subcommittee) presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.001
    
    [GRAPHIC] [TIFF OMITTED] T3767A.002
    
    Chairman Shaw. I will call the meeting of the Subcommittee 
to order.
    It is a great privilege for me to be out here in Nevada 
with a dedicated Member of our Subcommittee and a coauthor of 
the welfare reform legislation, Congressman Ensign.
    I would like to also welcome our guests and witnesses who 
will be testifying today.
    More appropriately, thank you all, and especially Myla 
Florence, Senator Washington, who we hope will be here later 
today, Assemblywoman Evans, for welcoming the subcommittee here 
to learn firsthand how welfare reform is working in the States.
    Today's witnesses will discuss how the historic 1996 
welfare reform law has helped move former welfare beneficiaries 
to work.
    We will also hear about the tougher child support 
enforcement provisions we passed to help mothers and their 
children.
    These and other changes have resulted in a virtual 
revolution in the way poor families get help in welfare reform 
offices all around this country. In fact, it is not quite right 
to call them welfare offices anymore.
    A recent United States General Accounting Office report 
found that ``States are moving away from a welfare system 
focused on entitlements to assistance. Welfare offices are 
generally being transformed into job placement centers, and in 
some instances, applicants are expected to engage in job search 
activities as soon as they apply for assistance.''
    In Nevada, where welfare caseloads have dropped 
dramatically--in my statement here it said 25 percent, but I 
found, on listening to Channel 8 this morning, it is 40 
percent.
    Since the welfare law passed, record numbers of parents are 
now finding work. What is more, as shown in the document 
prepared for this hearing by the Congressional Research 
Service, fixed block grants and declining caseloads have meant 
dramatically more resources.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.003
    
    Listen to this: Almost 50 percent more Federal support per 
family on welfare in Nevada today than in 1995. That is not 
because we are throwing more money at the problem. It is 
because we are solving the problem.
    Contributing to this is special assistance we added for 
growing States like Nevada.
    Congressman Ensign was a pivotal figure in getting this 
additional money for the growing States, such as Nevada, in the 
final legislation.
    And I might also say, that during the period of time we 
were putting this together was a very controversial, very 
political process that we were going through.
    Congressman Ensign and Congressman Kemp got signatures of 
100 members of the Republican side, testing our leadership, 
that they did not want the money under the issue of welfare 
reform.
    They wanted to separate it out from some other issues, such 
as Medicaid, which had gotten extremely controversial, and 
because of their action, I think that we were able to get a 
straight vote, and eventually get a signature from the 
President.
    After he had vetoed it two times, he came aboard, and we as 
a team, in a bipartisan effort, passed welfare reform. I think 
it is tremendously important.
    So contrary to those who predicted a race to the bottom in 
welfare, we are seeing a race to the top in terms of more 
Federal resources available to help especially parents with 
real difficulties find and keep jobs.
    Child support collections are following the same upward 
track, helping trim the welfare rolls even more.
    The story does not end there, and some families still on 
welfare and many who left need continuing support for 
themselves and their children.
    That is why we provided generous child care, Medicare, and 
earned income employment tax credit, all to encourage work 
instead of welfare.
    So we seem to be headed in the right direction in Nevada 
and elsewhere.
    Still, the reasons we reformed welfare were to help those 
who were trapped in the old failed system, and we are committed 
both to understanding how reform is working and keeping our 
minds open about further improvements.
    That is the reason for this hearing and many others that we 
have held and continue to hold in Washington and elsewhere.
    So I certainly thank the good people of Nevada for 
welcoming us for this hearing. I also thank the State and its 
legislature and its governor for making our faith in them pay 
off.
    We put our faith in the States, and States such as Nevada 
are proving that we were absolutely correct in doing so.
    I am going to ask Congressman Ensign if he would chair this 
hearing, and I look forward to hearing from the witnesses who 
will be before us today.
    [The opening statement follows:] 
    [GRAPHIC] [TIFF OMITTED] T3767A.004
    
    Mr. Ensign [presiding]. Thank you, Mr. Chairman.
    I want to welcome you and my colleague on the Ways and 
Means Committee on the Subcommittee on Human Resources, 
Congressman Christensen from Nebraska.
    I want to welcome you both to Nevada, especially this 
wonderful weather that we are having here in northern Nevada. I 
know you are probably enjoying that as well.
    This is, I think, a very exciting time. This is the two-
year anniversary for the signing into law of the welfare reform 
bill.
    A welfare reform bill, that I might add, was quite hot 
politically, and was fought at practically every step of the 
way. There were those people who demonized us as we set about 
to craft the most significant policy change in 60 years.
    While it was not always easy to press, it makes days like 
today even more powerful, knowing these changes have helped 
lift people out of the web of dependency and moving towards 
self-sufficiency. Nevada has led many States in this regard.
    And the State should be proud to boast of its successes 
today, while remaining to continue to move people from welfare 
into work.
    In 1995, Chairman Shaw and a handful of Congressmen sat 
down and drafted a bill designed to eliminate the entitlement 
to welfare and responsibly move individuals to work.
    Do we remember what welfare was like before 1995?
    Before reforms, almost no one on welfare worked. Lengthy 
stays on welfare were common. Of the families on the rolls at 
any given time, the average length of stay was 13 years.
    Families could receive welfare benefits forever, as long as 
they promised not to work, marry or save for their children's 
future.
    By 1994, a record five and a half percent of the American 
people, 5.1 million families, were on welfare.
    Between 1965 and 1994, welfare spending totaled over $5 
trillion while actually more children were in poverty than 
before.
    And even though prisoners were disqualified from SSI and 
Social Security disability benefits, prisoners who did not 
self-report their incarceration, continued to receive these 
benefits in jail.
    The average payment per prisoner receiving illegal 
taxpayer-funded benefits was $1700.
    Drug addiction and alcoholism qualified for disabling 
conditions for SSI and Social Security disability benefits, as 
well.
    Despite sponsorship agreements from Americans who promised 
to be responsible for noncitizens if they fell on hard times, 
by 1993, well over one million noncitizens were receiving 
welfare payments.
    Welfare and illegitimacy became synonymous.
    Finally, Congress proposed to end welfare as we know it. In 
1993 welfare was estimated to cost more than $30 billion.
    Since the reforms, since welfare reform has started, 
welfare rolls are now down 37 percent nationwide, and a little 
over 40 percent in our State. The welfare culture has truly 
been transformed.
    Now, welfare provides temporary help and requires work, 
breaking down the web of dependency before it is all-consuming.
    Addicts and alcoholics no longer get disability checks, 
saving somewhere around $6 billion.
    Noncitizens must work or rely on families or sponsors for 
support, saving billions of dollars.
    Thousands of prisoners are now being denied welfare, and 
just from prisoners, we are saving an estimated $3.5 billion 
over seven years.
    Child support is at an all-time high, up $13.4 billion.
    By taking the correct approach, the current welfare reform 
will save more than $40 billion by 2002. A little different 
than costing $30 billion as was proposed before.
    Some have argued the decline in the welfare rolls have been 
the result of the economy, not Congressional action.
    Since the inception of welfare in 1935, America has often 
had hot economies, yet the welfare rolls seldom declined. More 
to the point, consider the last two economic expansions.
    The Reagan expansion of 1982 to 1990 was one of the 
greatest in our history.
    But even though we added 20 million jobs, the welfare rolls 
actually grew by 13 percent.
    And let's just look back at the State of Nevada. The early 
1990s, our economy was booming. We had mega resorts opening in 
this State. We had northern Nevada diversifying its economy.
    But yet, March, 1995, as you can see by the chart over 
here, was the highest welfare rolls ever in the State of 
Nevada.
    That was at the same time that we started all this welfare 
reform talk, and people knew that it was coming to an end.
    And that is the reason you have seen such a drastic drop in 
the welfare rolls in this State, as well as around the country.
    There are two sets of winners here. First, there are those 
who are no longer trapped in a seemingly endless cycle of 
dependency.
    People are now planning for their future, and there are 
more people who can now give their children an opportunity they 
once thought was impossible. This is truly a gift.
    The other group of winners here are the taxpayers.
    The drain of welfare payments on the Federal and State 
budgets has substantially decreased.
    With the block grants in place, as welfare rolls decrease, 
there are more resources available to work with the people who 
have been dependent on welfare for the long-term, or to shift 
to other areas, such as child care or health care transition.
    I was very proud to have offered an amendment to the bill 
that made Medicaid health care more available to those 
transitioning from welfare to work.
    That, along with the vast child care resources that were 
included, are critical to keeping former welfare recipients in 
the work force.
    Also, in terms of the block grant approach, Nevada's 
funding will increase each year, providing millions more to 
this State because of the drastic effect of our population 
growth.
    I spent a great deal of time trying to explain to other 
members of Congress, whose States are not growing quite as fast 
as us, why we needed this growth formula.
    And with the combination of a few States like Texas, 
Florida, where the chairman is from, and Washington State, we 
were able to get this growth formula into the welfare reform 
bill.
    And this year alone, that is added about $1 million to our 
welfare budget for this State.
    And lastly, as an indication of how small acts can change 
completely the larger picture, in the summer of 1996, when the 
President had vowed to veto the welfare reform bill, it was 
just a couple of us that got together.
    As Chairman Shaw and we went up against the leadership of 
the Republican party, and we said, we do need to separate 
welfare reform from Medicaid.
    And that act, going up against some very strong political 
forces, was the act that, in fact, determined that welfare 
reform would be signed into law.
    Mr. Chairman, I know it is a long journey that we have been 
on. I am so proud to have served on our subcommittee and the 
wonderful job that not only you, but your staff, including Dr. 
Ron Haskins, who is with us today, has done on welfare reform.
    It is not just about saving the taxpayers' money, but it 
truly is about changing lives for the people that were trapped 
into welfare.
    [The opening statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.005
    
    [GRAPHIC] [TIFF OMITTED] T3767A.006
    
    [GRAPHIC] [TIFF OMITTED] T3767A.007
    
    [GRAPHIC] [TIFF OMITTED] T3767A.008
    
    Mr. Ensign. And now, I want to ask Charlotte Crawford and 
Jan Evans to come to the witness table, please.
    Chairman Shaw. While the witnesses are getting seated, Mr. 
Ensign, Senator Reid was asked to participate, but declined 
doing so, but submitted a statement, which I ask you now for 
unanimous consent to be made part of the record in this 
hearing.
    [The statement of Senator Reid follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.009
    
    [GRAPHIC] [TIFF OMITTED] T3767A.010
    
    Mr. Ensign. Without objection.
    Chairman Shaw. Senator Bryan----
    Mr. Ensign. Without objection.
    [The statement of Senator Bryan follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.011
    
    [GRAPHIC] [TIFF OMITTED] T3767A.012
    
    [GRAPHIC] [TIFF OMITTED] T3767A.013
    
    Mr. Ensign. First thing I want to do is recognize the 
representative for Governor Miller.
    Charlotte, I know you want to make a statement for the 
Governor.

  STATEMENT OF HON. ROBERT J. MILLER, GOVERNOR OF NEVADA; AS 
PRESENTED BY CHARLOTTE CRAWFORD, DIRECTOR, NEVADA DEPARTMENT OF 
                        HUMAN RESOURCES

    Ms. Crawford. Good morning.
    I am Charlotte Crawford. I am the director of the Nevada 
Department of Human Resources that houses our welfare program.
    On the part of Governor Miller, I want to extend you, 
Chairman Shaw, and your committee members a warm welcome to 
Nevada.
    Unfortunately, Governor Miller could not be with you this 
morning because he had an unavoidable conflict in his schedule.
    Governor Miller has long been an advocate for better lives 
of all families.
    Governor Miller has been involved in multiple legislation 
in his State to promote the betterment of families at the 
community level and the State level.
    He initiated the first phase of his welfare reform project 
in the mid-1990s. In 1995, as the chart here shows you see that 
we started seeing the falling of our rolls.
    As the immediate past chairman of the National Governors 
Association, and prior to that, the vice chair, he was actively 
involved with your committee in crafting the welfare reform 
legislation.
    He supported the legislation when it was separated out from 
Medicaid, which was, indeed, a very controversial issue, 
especially for fast-growing States like Nevada.
    You recognized the need for child care, which was very 
important to Governor Miller and to many of the governors.
    You extended the type of supports which we believe enhanced 
dramatically our ability to implement welfare reform in our 
State.
    On behalf of Governor Miller, again, we are very proud to 
have you in Nevada to see what we have accomplished with our 
welfare reform change.
    Thank you, and please have a nice stay.
    Mr. Ensign. Thank you very much, Charlotte.
    Now I want to recognize my colleague from the State of 
Nevada, and it has been a pleasure serving with you, Jim, and 
we look forward to your testimony.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And first, I want to ask unanimous consent to have a 
written copy of my remarks be entered into the record.
    Mr. Ensign. Without objection.
    Mr. Gibbons. Secondly, I would like to welcome each of you 
to the Second Congressional District of Nevada, a very large 
area of Nevada, indeed. It covers 99.8 percent of the State, 
and has a majority of the population within it.
    And so I think it is very important that we have this 
hearing today, and I am glad to see the members, and especially 
the Chairman, bringing this issue before us here in Carson 
City, which is the capital of the State of Nevada.
    As Congressman Ensign stated just briefly, it was two days 
ago that we celebrated the second anniversary of the welfare 
reform act as it was signed into law.
    Although I was not a part of Congress at that time, I have 
been able to see and watch this reform and the success of this 
reform take place across America, and especially here in the 
State of Nevada, as well.
    I believe strongly that more Americans today are waking up, 
feeling a sense of pride, pride that they now have a job, pride 
that they will get a paycheck at the end of the week or at the 
end of the pay period.
    And pride that they no longer rely on a handout, but, 
rather, they rely on their own self-determination for their own 
future.
    So today, our goal continues to be helping people move from 
poverty to prosperity by moving from welfare to work.
    Because there was so much talk about reforming welfare, 
people began to hear it on the radio, on television, in the 
news media.
    And welfare recipients around the world--or excuse me, 
across the Nation, began voluntarily to come into welfare 
offices asking for job training opportunities.
    That case happened here in Nevada, as well. And because 
Congress block granted the monies, States were given a greater 
degree of flexibility.
    They were given a set amount of money that allows them to 
have more money per actual welfare family.
    As a matter of fact, it is estimated that about 56 percent 
more money will be available for those families remaining on 
welfare to help with such important activities as child care, 
retraining, and especially job placement.
    Reforming welfare was important, not--and I want to 
emphasize this--not because it let us get the poor off welfare 
so we didn't have to pay for it.
    But rather, and, more importantly, it helped the poorbecome 
prosperous.
    Our goal in dealing with welfare reform is now to make sure 
that every citizen has an opportunity to pursue happiness.
    As stated in our Declaration of Independence, it says that 
we are endowed by our creator with certain unalienable rights, 
among which are life, liberty and pursuit of happiness.
    So we are trying to get that unalienable right to the 
welfare recipients so they can get in the habit of going to 
work, get in the habit of saving on their paycheck and begin to 
acquire private property, and to pursue happiness.
    By enacting welfare reform, Congress took a substantial 
step forward in establishing a commonsense welfare policy.
    This new welfare law enacted by Congress in '96 was the 
first step in, I believe, a very long process of reform, a 
process that continues today with your help.
    As we look to new reform efforts, these efforts must be 
based on what I think are three things.
    Leveling the growth of welfare, which steps can be taken to 
help legislators, policymakers, administrators, and the public 
understand the vast size of the welfare system and attempt to 
secure its future growth.
    Secondly, reducing illegitimacy and restoring marriage and 
the value of marriage.
    Restoring this valuable part of our heritage and our 
culture, that being marriage, must be the paramount social goal 
for policymakers.
    The new welfare law, for the first time, makes reducing 
illegitimacy a formal national objective. Now, States must 
adopt effective programs to deal with this very same issue.
    And finally, Mr. Chairman, to reduce dependence and require 
work and responsible behavior, the work and dependence 
reduction standards of the new welfare law must be preserved 
and strengthened.
    By applying these three goals, we can and we will continue 
and, like I said, help move people from poverty to prosperity 
by moving them from welfare to work.
    Again, thank you, and welcome to Nevada.
    Mr. Ensign. Thank you, Jim. Just as a reminder, and you did 
a very good job, by the way, of staying under the 5-minute 
rule. I appreciate that.
    He is trained, because this is what we do in Washington.
    For those witnesses today, we would like you to, if you 
could, summarize your comments within 5 minutes.
    And then we will at the end of each panel, have questions 
and answers for that panel.
    Your full statements will be made a part of the record.
    I would like to recognize State Senator Maurice Washington, 
we worked very closely with your office, had a great 
relationship working back and forth.
    When you were working on welfare reform here in the State, 
and we were working on it in Washington, one of the things we 
had to do is make sure what we were doing was not going to mess 
up what you are doing and vice versa.
    So, really enjoyed working with you during that time, 
Maurice, and look forward to your comments.

 STATEMENT OF THE HON. MAURICE WASHINGTON, NEVADA STATE SENATOR

    Mr. Washington. Thank you, Chairman. To the members of the 
panel, it is a pleasure to be here this morning.
    I would like to say, before I start on my comments, it was 
a tedious road, and it was a mind-set that when we first came 
into the senate that we were going to work on this issue.
    Was not a popular issue. It was an issue that most of 
constituency were quite aware of, and the rapidly growing rolls 
of the welfare recipients, for the most part, they were 
concerned that not only was it being pushed upon them, but they 
were also concerned about the children that were caught up in 
the welfare rolls and the mothers and, per se, the fathers 
also.
    And as a Nation, what kind of trend or what kind of policy 
were we setting for future generations?
    So we made a promise to them that we were going to endeavor 
to work on this issue.
    And I would like to say proudly in '95 we introduced the 
bill, with the help of the majority leader, Senator Raggio, 
and, of course, your office also.
    It was a task that we thought, that many had thought 
wouldn't be able to be accomplished, but we did accomplish it.
    We set some meaningful provisions in the bill that we 
thought would be helpful to those recipients that are on 
welfare and to their families.
    To begin with, I am very ecstatic and excited about the 
fact that since March 1995, the welfare rolls have been reduced 
and have been going down tremendously.
    But there is an area of concern, and I know that you 
mentioned it, and that concern is to make sure we don't augment 
our cash assistance into other types of assistance, and that 
trend is very important.
    I think the important thing is that we make sure that we 
are setting a policy, a mind-set and a trend that self-
sufficiency is important, not only for the individual, but for 
the Nation as a whole.
    Congressman Gibbons already mentioned the fact that there 
are certain areas of importance in welfare and reforming 
welfare that need to definitely be taken a look at.
    The first one, of course, I have written down is the 
illegitimacy rate.
    I know in our legislation and the legislation that was 
passed and signed into law by President Clinton, illegitimacy 
was very important.
    Teenage pregnancy, making sure we reduce the rolls of 
teenage pregnancy, and, in turn, enhancing marriage, and the 
sanction and theinstitution of marriage.
    And the third thing--the second thing that I think is very 
important, as we continue to work on this welfare reform issue 
is the responsibility of the individual to either succeed or 
fail on their own merits.
    Not that we are looking for failure, but also that if there 
is a $6 an hour job going up to $10 an hour, that they have the 
opportunity to succeed or fail because of their efforts and 
because of their initiatives.
    And the last one, of course, is the family unit. I think 
the missing element in the welfare reform issue has always been 
the male and how we deal with that male.
    I know we have been going after them for child support, but 
I have been finding out lately, especially in the past six 
months, there are some issues that have arisen concerning the 
male.
    Most times, the males are still young males, between the 
ages of 16 and 25. They have their own form of welfare, and we 
call it the prison system.
    We are going after those males for child support, and 
coming to find out that they have very poor job skills 
themselves.
    They don't understand the responsibility of marriage or 
raising children, and so there is another factor in dealing 
with the family unit.
    In the family unit, of course, we set the values and the 
morals of the family, we set work ethics, and we set the 
traditions that this country has so well been founded upon.
    And I think those are areas that are important as we 
continue this road of success in welfare reform, and we are 
going to address those issues and look at them very intently, 
Mr. Chair.
    Mr. Ensign. Thank you, State Senator.
    Honorable Jan Evans, Assemblywoman, we welcome you here and 
look forward to your testimony.
    Myla Florence spoke highly of your involvement in the 
welfare reform bill, so we look forward to your testimony.

      STATEMENT OF THE HONORABLE JAN EVANS, NEVADA STATE 
                         ASSEMBLYWOMAN

    Ms. Evans. Chairman Shaw, and committee members, as chair 
of the Assembly's Ways and Means Subcommittee on Human 
Services, I thank you for taking time to listen to Nevada's 
experience and concerns regarding welfare reform.
    It is especially important to discuss welfare reform in 
Nevada because our legislature enacted welfare reform prior to 
Federal legislation.
    In 1993, my subcommittee asked our welfare division to 
convene a statewide task force that would include a broad 
spectrum of citizens and community-based organizations, with 
the goal to design a plan that would bring about fundamental 
change in the State's welfare system.
    Under the capable leadership of Myla Florence, our State 
Welfare Director, work was completed in time for Governor 
Miller to examine the proposal and include many of the changes 
in the executive budget presented to the 1995 Legislature.
    Ultimately, it was adopted with an effective date of 
January 1996.
    If you compare the Nevada plan with subsequent Federal 
legislation, you will find many similarities.
    One of the key elements was the requirement for a work 
first strategy that included 10 up-front job searches per week.
    You will see there is a notable caseload decline in Nevada, 
and as you mentioned, our caseloads have dropped over 40 
percent.
    Governor Miller also recognized the importance of the child 
care component and increased the budget in '97.
    Even with the additional $11 million that the State of 
Nevada added to the Federal child care dollars, we still see a 
shortfall of available money for families at risk of going on 
welfare, as well as for those already in the welfare system.
    Another pivotal issue concerning the availability of jobs, 
paying a livable wage. In our booming southern Nevada economy, 
this is not an immediate problem, albeit we know it could 
change.
    A very different story is true in northern and rural 
Nevada. Wages are lower, the average being $6.30 an hour, 
compared to $9.25 per hour in southern Nevada.
    This makes it difficult for a single parent to get a 
livable wage job and support a family.
    I would like to see a greater effort on the part of the 
Congress to reach out to the private sector and encourage their 
participation in putting people to work.
    Additionally, affordable housing is a problem statewide.
    I would like to emphasize in all this, the results of a 
recent research conducted by the Food Bank of Northern Nevada.
    They have come out with a troubling report showing that 
over 24 percent of those receiving foodstuffs are employed, and 
55 percent of those who are employed full-time are still unable 
to make ends meet.
    Thus, we ask ourselves, what will happen to those single-
parent households dropped from the assistance programs? Will 
they simply become part of a growing underclass, cut off from 
Federal and State assistance?
    Do we expect community nonprofit agencies, the cities and 
counties to pick up the tab?
    We must also ask whether we have solved the problems of 
welfare or merely established a system of cost shifting to 
local entities.
    I urge you to study the food bank report.
    Chairman Ensign, if your committee needs copies, we can 
make these available.
    Mr. Ensign. We would like that.
    Ms. Evans. Finally, there is a concern about dealing with 
those persons who are the hardest to serve, those with multiple 
impediments to employability. That question will hit Nevada 
when the two-year limit begins.
    We all know that over 50 percent of clients get off welfare 
well before the two-year limit, but what about clients with 
greater obstacles, obstacles that impede getting off the system 
entirely?
    We must face the reality that a percentage will require 
some type of assistance for a long period.
    We applaud the efforts of Congress to make the changes in 
the welfare system. However, your request that we tell you 
about the impact of welfare reform in Nevada is premature. The 
numbers don't tell the entire story.
    We have just begun this uncertain journey, and we do not 
have the data to support the program's ultimate goals.
    We hope that Congress will keep an open mind and work with 
the States in continuing efforts to find the best approach to 
assisting low-income families.
    Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.014
    
    [GRAPHIC] [TIFF OMITTED] T3767A.015
    
    Mr. Ensign. I want to thank the panel for their testimony.
    I have a couple questions before I turn it over to the 
Chairman for his questions.
    First of all, I want to, Assemblywoman Evans, I want to 
just talk to you briefly. You mentioned affordable housing. 
That is something that I actually have been very involved with 
in several different areas.
    I don't know how aware you are or familiar you are with the 
low-income housing tax credit and the way that that fits into 
the whole welfare reform.
    To date, public housing, as we know, has pretty much been a 
disaster in this country.
    The crime rates in public housing, I mean, we have just 
housed the poor in units where they grow up with a certain 
mentality that just fosters, all kinds of bad behavior.
    Whereas, the low-income housing tax credit gets people in 
decent neighborhoods, in mixed income-type places, where they 
have mentors. They have other role models around them.
    And I have a bill in Congress, actually, to dramatically 
increase the low-income housing tax credit, because in States 
like Nevada that are growing so rapidly have a shortage of 
affordable housing.
    That is one of the areas that, because the old formula 
never indexed the tax credit for inflation, we were very much 
in a shortage situation, and especially in the sunbelt, and no 
place more than we are here in the State of Nevada.
    So I don't know if you have worked with low-income housing 
tax credits or some of the Federal home funds or any of those 
types of programs.
    But it is something that I am trying to, from the Federal 
level, to get that much more funding for our State, as well as 
I know there is some things you can do with the State level.
    You want to comment on that?
    Ms. Evans. Well, I thank you for that. The more that can be 
done the better.
    I think we--I think we see that as something that is going 
to help, perhaps, over a longer period of time.
    But what we know is that in the short run, there simply are 
not enough units available that people can--and the waiting 
lists, that is what we have to look at are the present-day 
waiting lists, and what is the quickest, most effective, cost-
effective way of providing housing for people before these 
other things can kick in.
    Because even tax credits and so forth, you have to be at a 
certain stage in terms of having a stable work and income so 
that you can get ready for that.
    We need units right now across the State. It just is not 
there. So I think you are moving in the right direction.
    I think that I would also like to see more effort in 
engaging the private sector, because public/private 
partnerships we know work.
    In fact, the most effective program for TANF in getting 
people trained and in jobs is in southern Nevada today. If you 
have not visited the job training site that the culinary union 
has put together, and works with the casinos, I mean, you have 
to have--like I said, you have to have someplace for these 
folks to go. You can't train them for nothing. They have to 
have someplace.
    They have worked out a beautiful system, a model program 
that was just recently demonstrated to members of the National 
Conference of State Legislators.
    We had our annual program in Las Vegas. People from all 
over the country came and were just dazzled by what is 
happening.
    That is one program. It is a model program. And we salute 
that because it really does help train people for real jobs, 
and when they complete that training, they go to a real job, 
and that is what we want.
    So, you know, it is sort of an organic whole. Trying to 
make all of the pieces fit.
    So what you are suggesting for the low-income tax creditfor 
housing, great. Keep going in that direction.
    But as I said, you will see a greater need to engage and be 
creative. The private sector is creative. I know. I have passed 
legislation myself on public/private partnerships for things. 
And I think we are not tapping them as a resource.
    Mr. Ensign. Before I go to our Senator Washington, I want 
to invite--our attorney general to join us.
    And if you would like to come up and join the panel, 
although I know you are supposed to be on a different panel.
    If you would like to come up and make your statement now, 
we--that is one of the traditions we have is allowing elected 
officials to come as part of the first panel.
    We have this five-minute rule. So if you could summarize 
your opening statement to around five minutes, and then we will 
continue with the questioning.
    Chairman Shaw. Before we do that, if I might inject this, 
because I am very impressed with the testimony that we have 
received.
    But I don't want anybody to leave here thinking that we are 
turning our backs on the poor in what we are spending, and I 
would particularly like to direct this to Assemblywoman Evans 
as to what we are spending.
    This last year, we spent over $50 billion on the earned 
income tax credit, Medicare, child care, employer credit, food 
stamps, plus another $29 billion on housing.
    Plus, I think it is important to note, and I think that 
this really brings about the creativity of the State 
legislature and what they can do, because now you have got over 
40 percent more to spend on the families that are on TANF.
    This is tremendously important. I think it is important to 
realize that what this Congress has done is joined together in 
a partnership with the States in putting together the 
legislation that has really done so much to get people off of 
welfare.
    You brought up the fact that the State of Nevada was one of 
the early, early States involved, as the representative of the 
Governor did.
    And I think it is very important to realize that the first 
act that I did as Chairman of this subcommittee, was get 
together with Mr. Ensign and the other members of our 
subcommittee and meet with the governors.
    We said, what can we do to make this legislation work?
    So the days have ended in Washington, hopefully, they are 
over forever, where we sent down directives.
    We are in partnership with the States, and I think we have 
certainly been vindicated by placement of our faith in the 
States, because you have done a wonderful job in working 
together.
    But I just wanted to be sure that the record was very clear 
that we are not, we are not cutting back. What we are doing is 
putting the money where people can learn to work their way out 
of these terrible situations that had been put in place and 
left in place for 60 years, and have actually even saved people 
from a corrupt system which paid them not to work, to have 
kids, and not to get married.
    That is the worst thing you can possibly do. If you 
subsidize something, you are going to get more of it, and we 
certainly did.
    We got more people having kids out of wedlock and living in 
poverty and growing up in a life of poverty, and, thank the 
Good Lord, we have turned that around.
    Thank you, and I apologize for interrupting.
    Mr. Ensign. That is okay.

 STATEMENT OF THE HON. FRANKIE SUE DEL PAPA, ATTORNEY GENERAL, 
                        STATE OF NEVADA

    Ms. Del Papa. Chairman Shaw, members of the subcommittee, I 
am Frankie Sue Del Papa, Nevada's Attorney General.
    The Nevada Attorney General's Office provides legal 
assistance to the Nevada State Welfare Reform Division, as well 
as representation on child support cases handled by regional 
Welfare Child Support Program area offices in Las Vegas, Reno 
and Elko.
    My office assisted in the reviewing, drafting and passage 
of State legislation that incorporated the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996 
into Nevada's Revised Statutes.
    This piece of State legislation consisted of two separate 
bills that affected 95 chapters of the Nevada Revised Statutes, 
and was the result of many hours of efforts by my office on 
many fronts.
    I am here today to share with you firsthand some of the 
efforts of my office and the State of Nevada to increase the 
collection efforts in the area of child support enforcement.
    The District Attorney's offices across our State, the Child 
Support Enforcement Unit of the Nevada State Welfare Division, 
as well as the Office of the Attorney General areall committed 
to ensuring that every child is financially able to participate in the 
opportunities available to him and/or her, to assist in ensuring that 
each child has the opportunity to develop a meaningful relationship 
with their parents.
    You will see the chart. Basically, we have chronicled for 
you the Nevada Attorney General's Office involvement.
    Although primary responsibility for child support 
enforcement rests with the individual District Attorney's 
offices, who have done a fantastic job throughout the State of 
Nevada with very limited resources, the Nevada Attorney 
General's office has always been involved in some extent of the 
actual child support and Child Support Program.
    Our office has, and will, continue to participate in 
negotiations for the release of liens on real property in the 
State of Nevada and out of State.
    However, my office has taken a more active role in the 
Nevada Child Support Program in recent years. Our office took 
over representation of the Child Support Program in two smaller 
counties in this State.
    Those particular counties, the majority of the day-to-day 
casework is being handled by the caseworkers out of the Nevada 
Welfare Child Support Program Offices.
    However, when there is a special legal issue, or they need 
an attorney to be involved, raising specific questions, our 
office represents the case in court.
    Our office is also working on assistance cases where there 
is an issue of paternity.
    This office is taking over these duties to assist the Child 
Support Program in shortening the time frame to secure orders 
establishing paternity and support obligations for those 
children on welfare.
    This represents approximately 175 cases a month for the 
Reno and Las Vegas Attorney General offices.
    Our office was also assisting the welfare division in the 
Reno and Las Vegas offices in recovering birthing costs paid 
out as medical benefits under the welfare program.
    Our office has initiated and worked with the Child Support 
Enforcement Program.
    The first, of course, is the most wanted poster, which 
features information and photographs about deadbeat parents. 
The poster highlights 10 notable deadbeat parents whose 
whereabouts are unknown.
    This is the fifth poster in what has become a very 
successful campaign to help locate men and women wanted in 
Nevada for failure to pay child support.
    The first poster was released in May of 1996 and has been 
released to coincide with Mother's Day.
    The office worked with the Child Support Enforcement 
Program, developed the criteria for the creation and submission 
of names to local District Attorneys, and especially the 
response by the media and citizens of this State achieved 
results beyond our expectations.
    The most wanted poster has resulted in at least two 
criminal convictions and located 19 out of the 28 deadbeat 
parents.
    The resulting collections received as a direct result of 
this project is in excess of $50,000. These were noncustodial 
parents who had dropped out of sight and owed at least $10,000 
in back child support.
    By the way, the most wanted poster is on our web site, the 
Attorney General's web site, which is one of the most 
frequently visited web sites in the State.
    Likewise, our office wanted to promote positive aspects of 
the Child Support Program.
    In order to accomplish this, prior to Father's Day, we sent 
out letters to the District Attorney's offices and asked them 
to submit names of committed noncustodial parents.
    The noncustodial parents who were recognized showed 
involvement in their child's life which not only reflected a 
financial commitment, but also a physical commitment as well by 
maintaining a relationship with their children.
    We also--as you can see, we do the brochures, how to 
collect child support. We have Spanish language copies of 
everything, basically. The way we do most consumer education 
information, everything is produced in Spanish, as well.
    Because of the welfare reform act requirement that tied 
payment of child support to the ability to obtain or maintain a 
professional, occupational or recreational license or 
certificate, I knew there would be questions with reference to 
that issue.
    We formed a task force. We have tried to address ongoing 
public education in that regard. We provide an interface with a 
number of other entities.
    Our office also perceived a lack of understanding among the 
private bar as to how the welfare requirements would affect 
private businesses and employers.
    A deputy has coordinated with the Nevada State Bar 
Association, putting together continuing legal education 
classes on the legal developments of welfare reform.
    In all, the new tools and changes made by welfare reform, I 
think, have dramatically increased the ability to collect child 
support for the children of our State.
    For instance, in Washoe County alone, there were 651 wage 
withholding hits in the last 30 days thanks to the new-hire 
reporting information being captured.
    However, various District Attorneys have expressed their 
concern about certain welfare reform requirements. One concern 
is that some of these tools would not be effectively 
implemented because of their cost in dollars and caseworker 
time, ultimately making the effectiveness of these new tools 
depend on the resources made available to the Child Support 
Program.
    Second, the District Attorneys have expressed concern about 
the central disbursement unit requirements imposed on State 
child support programs.
    The District Attorneys feel that this disrupts some State 
systems which had already been very efficiently and properly 
processing payments, potentially replacing them with an unknown 
central disbursement unit which will, in a State of our size, 
extend the mailing times for checks to be delivered.
    They understand the necessity of keeping track of payments 
in a central location, but according to the District Attorneys, 
this information can be shared without the disbursing of the 
checks being centralized.
    There are other State initiatives--I haven't seen a red 
stop going up, but I am probably reaching my time.
    Obviously, this is something that attorneys general around 
the country are concerned with.
    Indiana, Rhode Island, Maine, Delaware and Iowa have all 
been at the forefront, and I have left those initiatives in my 
testimony to share with you as to what those other States are 
doing.
    Finally, I look forward to working with Congress and 
theFederal Office of Child Support Enforcement to make any changes that 
could possibly improve the effectiveness of our Child Support Program.
    Your willingness to have these hearings, I think, is a step 
in that direction.
    Obviously, this is an issue that is very important to all 
of us. We know the impacts on the families that are not able to 
collect the child support.
    And so anything we can do, we are committed to enhancing 
the State's ability in cooperating and coordinating with our 
State's District Attorney's offices to enhance their ability to 
collect child support.
    Mr. Ensign. Thank you. Excellent testimony. Your full 
statement will be made a part of the record.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.016
    
    [GRAPHIC] [TIFF OMITTED] T3767A.017
    
    [GRAPHIC] [TIFF OMITTED] T3767A.018
    
    [GRAPHIC] [TIFF OMITTED] T3767A.019
    
    [GRAPHIC] [TIFF OMITTED] T3767A.020
    
    [GRAPHIC] [TIFF OMITTED] T3767A.021
    
    [GRAPHIC] [TIFF OMITTED] T3767A.022
    
    [GRAPHIC] [TIFF OMITTED] T3767A.023
    
    [GRAPHIC] [TIFF OMITTED] T3767A.024
    
    Mr. Ensign. We were talking earlier about affordable 
housing.
    And, Senator Washington, you wanted to make a comment about 
that?
    Mr. Washington. Thank you, Mr. Chair, yes, I did.
    I think the affordable housing tax credit that you just 
alluded to, we have kind of been following it and just watching 
the progress of it, initially, and the reason being, is because 
it relates to a couple of our situations that I found myself 
in.
    After I finished school, my wife and I were in subsidized 
housing, and the State of Nevada at that time had low-interest 
loans that they were providing for first-time home buyers, 
which were actually kind of subsidized by the State.
    We took advantage of that situation and bought a home for 
ourselves, and after that, we sold a home, but we were able to 
move up the progression due to the fact that we had an 
opportunity to purchase a home, based on the availability of 
these loans.
    And the reason I want to speak to it is because there are a 
number of initiatives and great ideas that are being put forth, 
I know at the northern part of this State by Dave Morton, who 
runs the Reno Housing Authority, creating opportunities for 
individuals to purchase homes or move into homes for the first 
time.
    I think that the housing tax credit will give that 
opportunity to those individuals for ownership, and ownership 
is the most important thing, and it is one of the main planks 
of the constitution, to be able to own property, because it 
gives you a sense of pride, a sense of belonging, a sense of 
self-worth, a sense of self-sufficiency.
    And that tax credit will help those that are trying to 
become self-sufficient to own property for themselves.
    Not only for themselves, but for their children and their 
children to look at their parents to say, something definitely 
positive is happening in our family.
    So I think it is a positive move. I think it is only one 
plank, and there are many other things that are going on, but 
it will definitely have an impact.
    Mr. Ensign. Thank you. I want to make a couple of comments 
on a few of the things that I have heard.
    First thing was that--Jan, you made some comments about, 
and so did you, Maurice, about the people that are very 
difficult now to get off.
    You know, we get through those, the, quote, easy ones or 
easier people that have a little more motivation to get off.
    I have a story about, I am in the Big Brother, Big Sister 
program and I am a Big Brother.
    And Rhonda Butler, who is the mother of the child that I am 
a Big Brother to, was on welfare down in California for a long 
time, was one of those, quote, difficult ones to get off.
    And it was, with welfare reform and the whole aspect of 
welfare reform just being mentioned, just being talked about, 
that started, I think, people looking at, the time limit 
coming.
    Looks like Congress is now serious about this. Looks like 
the State is serious about doing welfare reform, and it gave 
people like Rhonda the motivation to take a look at what she 
was doing.
    All of the men that she knew were either in prison or on 
drugs. The women she knew were all on welfare. She had just 
been caught up in the same dependency cycle.
    And she saw the future for her four small boys and decides 
to move to the State of Nevada and get a job. The reason I 
bring her up as an example, she is one of those, quote, 
difficult ones to place.
    But knowing that there is a time limit, knowing that they 
cannot be on this for a lifetime was the key.
    We talk about job training. That is very important. Life 
skills, and we will have some testimony later today about some 
of those types of things.
    Those are all important, but there is nothing more 
important than the actual job itself.
    And, you know, we talk about that their having a job out 
there. You mentioned that, we have to make sure those jobs are 
out here.
    If you look at the Sunday papers, every single Sunday, 
southern, northern Nevada, I don't care where it is, there is 
job after job after job, people having to advertise to get 
these jobs filled now.
    And if people want to get a job, if they have the 
motivation, they can get out there and get the job.
    But without the time limit, without us saying, we are not 
going to pick you up for the rest of your life, without that, 
ending entitlements, nothing, none of this would be happening.
    I read some statements in the press, and some people make 
these statements: We don't know whether this is a success or 
not, just because we decreased the, welfare rolls by 40 
percent.
    We don't know what is happening to these people. We don't 
know if it is a success yet.
    That is just, in my opinion, is pure, utter nonsense.
    We have story after story after story from these people. 
Yes, they may be getting some extra help from someplace else.
    But the fact is, their lives are being changed in apositive 
direction because they are getting into the work force.
    And as a person who grew up with a deadbeat dad, who grew 
up with a mom that was a single parent in Reno with three 
children that made less money even in those days than if she 
would have been on welfare, the work ethic she taught me, that 
has stayed with me today, is the same kind of work ethic now 
that welfare parents are going to be teaching their children.
    And if we don't think that is a positive success story, I 
don't know what is in this country.
    And that is why I don't think that after two years of this 
thing passing, for us to be evaluating and be saying that it is 
too early, I just have trouble, I guess, understanding that 
statement.
    So if any of you would like to comment on what I just said, 
it is fine.
    But I will turn it over to Chairman Shaw.
    Ms. Evans. Thank you for that.
    However, I am not talking about people who are motivated, 
and clearly with a ticking clock hanging over one's head, or if 
you are unmotivated, that would clearly get you moving.
    But I am talking about those individuals with learning 
disabilities, various types of physical handicaps and so forth 
that need--there are multiple reasons why some people are what 
we call the hard-core unemployed.
    That is the group I am referring to, not the bulk. As they 
said, we know that the majority of people either have some 
skills that they can just polish up, or they are teachable. 
They can learn a skill.
    But there is, nevertheless--we talked to folks who are 
doing this on a daily basis. There is a percentage out there 
that we have to make some provision for where there is, as I 
said, some kind of an extended time, helping them with job 
mentors, a variety of approaches to this.
    That there are folks that are going to need some additional 
time and attention. Those are the ones I was referring, those 
with multiple problems and obstacles.
    Mr. Washington. Mr. Chair, if I might add, in the '95 
provision of the welfare reform bill and the '97, there are 
provisions in the current statute that will exempt those type 
of people from the time limits, so those people are taken care 
of: The mentally ill, those that have physical handicaps. So we 
are not talking about those people.
    The people that you are talking about are the ones that are 
incorrigible, unmotivated and hard-core, that have been on the 
rolls for an extended period of time.
    Oregon has a program that they have been doing for quite a 
while, and it is kind of what they call a sink and swim.
    You either get out and get a job, and you either swim, or 
you sink. And sometimes I think what we have done is we have 
developed this job training mentality. Say we are going to 
train you for certain jobs.
    When, in essence, some people, all they need is the 
motivation, or sometimes we should say to them, you just have 
to get out and get a job. You are either going to sink, or you 
are going to swim.
    And Oregon has been very successful at this program, and I 
know State welfare has looked at this program extensively, and 
they have come in and provided information on it.
    Can it work? I think it can. Because now you are dealing 
with the fact that there is a determinate time line that you 
have to go to work, and assistance, cash assistance, is going 
to be cut off. That is the motivator.
    Whether you have got a $6 an hour job, or whether you have 
got a $10 an hour job, and whether you can continue to further 
your own education, the motivation is yours. Not the State's, 
not anybody else's, but it is yours.
    Mr. Ensign. Chairman Shaw.
    Chairman Shaw. I am glad, Senator Washington, that you 
brought that up because the welfare reform bill was very 
careful to leave, I think it is about a 20 percent recognition 
by the States, that there is going to be a certain amount of 
people that just are not going to be employable, plus we have 
got--for the disability people, we have got SSI, which is 
another type of support.
    So we have tried awfully hard not to leave anybody behind. 
And I might say, that despite some of the abuse that we took in 
the Congress, those of us who were working, being called mean-
spirited.
    I heard that word over and over and, again, how mean-
spirited. But we weren't. We were viewing what we were doing as 
a rescue mission, and we have been proven correct. That is 
simply what we have done.
    I would like to, in just a couple minutes--I see the time 
is getting--is moving along very quickly here.
    So, most interesting panel, and most interesting 
discussion.
    But I do want to point out to you, Senator Washington, 
something that you brought attention to, which is something 
that we are recognizing as one of our next challenges in 
Washington.
    That is the question of the fatherhood initiative program 
that we have filed, which I think both Congressmen Christensen 
and Ensign are cosponsors of in the Ways and Means Committee.
    We are recognizing that one of the problems in the growth 
of illegitimacy is, quite frankly, we just don't have enough 
qualified males that females really want to marry.
    And that, I mean, I don't want to hear any women saying 
that. But as a man, I can say that.
    And there is a real problem out there, and there is a huge 
problem.
    And one of the problems is that these males are growing up 
in a family where there was no male for them to be able to use 
as a role model.
    And we have found a few successful programs around the 
country, just as we were finding successful programs among the 
States in welfare reform. We were finding some programs that 
are out there.
    And we are hopeful to be able to allocate sufficient funds 
for the States, or allow the States to use some of their 
existing fundings to get into the fatherhood programs to teach 
these males exactly the importance of a job, and really what it 
is to be a father.
    And not only the financial responsibilities, but also the 
spiritual responsibilities of providing love and caring and 
being able themselves to at least start being a model for these 
kids.
    And, hopefully, we can stop the problem that we have out 
there.
    And I think that the whole image of the male has been 
tremendously diminished, even if you look on television as what 
is up there right now.
    The joke of every family program now is the male. It isthe 
father, who is always a bungling idiot, that everything he does goes 
wrong.
    So I think what we need to do, and we need to really show 
that being a father and being a partner is a tremendous 
responsibility, and carries with it not only the need that they 
earn the respect, but also that they have something to work 
with.
    In doing that, we have put together in the legislation that 
the majority of this effects, 75 percent of it would be 
required by the State to be contracted out to organizations, 
some of them faith-based organizations. Some of them not.
    But we have got to do something. We just can't sit here and 
let the thing just get worse and worse.
    Ms. Del Papa. Mr. Chairman, let me just take what you have 
said one step further.
    Nevada, unfortunately, has one of the highest teen 
pregnancy rates in the country.
    One of the challenges that we have seen, and this is 
documented obviously in the book called Fatherless America, 
some of which obviously you have alluded to and are familiar 
with.
    However, one of the challenges that we have to face is 70 
percent of the over-20 males are engaged with adolescent 
females, who are, in fact, under 20.
    So you have got the phenomena of an older man being 
involved with a younger woman. You have also got--but, again, 
there is no one solution that is going to fit every 
circumstance, and you have got to have a broad base of 
programs.
    I, for one, would like to see us consider, as a country, 
what we have done for the domestic violence task force, 
requiring a State action plan, and, indeed, letting the States 
go forward and do those programs that are appropriate for them.
    Because what is going to work in Washington DC or Carson 
City is not going to be the same thing that is going to work in 
Las Vegas or Pahrump or some other small town. You have really 
got to get back to the sense of the community.
    But another side thing that I will tell you, you are 
probably already aware of it, that juvenile delinquency and 
teen pregnancy occurs between three to six p.m.
    I mean, those are the most vulnerable times for the family. 
Those are the most vulnerable times for the communities. Where 
is everybody from three to six p.m.?
    And if you don't have--if you don't have activities, if you 
don't have alternatives--and, again, I see a lot of these 
things very much interrelated.
    That is why so much of our time in the Attorney General's 
Office was put on domestic violence prevention, trying to do 
whatever to assist our clients.
    With reference to teenage pregnancy, it will take a 
concerted effort, and I would, for one, would like to see, and 
you can't just do it with abstinence-based messages. I think 
abstinence-based messages are very important for the nine- to 
13-year-old group.
    But once they get beyond 13, you have got to have 
alternatives. You have got to have access to other programs and 
other organizations.
    But it is quite complicated. One of the things I would like 
to see us do is address that issue the way we have addressed 
domestic violence prevention.
    Chairman Shaw. I think the legislation that we have been 
drafting would allow you to become very much involved in that, 
in putting these various programs together.
    And before I surrender the microphone to Mr. Christensen, I 
would like to compliment you. I mean, I really know I am in the 
Wild West when I see wanted posters.
    I think that is a great idea. I don't know if other States 
are doing that. But----
    Ms. Del Papa. They are.
    Chairman Shaw. But that is the first one I have seen, and 
it certainly, I think, is quite appropriate.
    Ms. Del Papa. Again, you are looking for innovative ways, 
because how can you reach the public if you don't have access 
to the media?
    And these are the types of things. I mean, in our State, we 
have enjoyed good cooperative efforts with Nevada's media, but 
you do have to have ideas, and you have to have programs that 
can capture the imagination as well.
    Otherwise, you can't have access, because, again, like even 
thinking in terms of adolescents in our State, in the age group 
from 9 to 18 years old, 220,000 adolescents in that age group.
    How do you reach them if you don't have some sort of media 
component or some sort of public education campaign?
    So no matter what you do, you have got to be very cognizant 
of that. This program, as I had said, has been very effective. 
We have even had two criminal convictions, which are virtually 
unheard of, almost.
    And we have had 18, I think, out of the 24 people captured, 
and a large amount of money raised. But, again, part of it is 
it helps raise public awareness, which is something we are 
always concerned about doing in any of these programs, and at 
the same time recognize the upbeat.
    Because you don't always want to be ragging on the deadbeat 
parents. You also want to do some things as far as recognizing 
those people that are fulfilling their obligations.
    Mr. Washington. If I can just interject one thing.
    I think what is important is, whether at the State level or 
at the Federal level, we implement policies also that enhance 
and encourage the family unit to stay together.
    And what we are trying, what you are trying, or what I am 
gathering what you are trying to say is that we want to 
encourage the sanctity of marriage.
    The importance of marriage and the responsibility of a male 
and a female, and raising their family and raising those 
children and what that encompasses.
    And I would just add to the Attorney General, I think they 
are doing a great job on the child support end of it, and I 
applaud them for it, but here is my concern.
    My concern is if the--between the hours of three to five, 
if their parents are not at home, or something else is going 
on, or illegitimacy is increased at that hour or juvenile 
delinquency, let's ask the question: Why is it that--why is it 
at that hour that there is nobody at home?
    Well, I think there is a tremendous tax burden on people, 
also, because now in two-parent households, for instance, my 
household, my wife and I have to both work.
    Now, it is not to say that we excuse or neglect our 
responsibility in raising of our children.
    But you have got to understand when you have got two-parent 
households that we are both working, trying to keep the ends 
meeting. Because if the tax burden is too highupon them, 
something is going to give way.
    And the old adage, the hand that rocks the cradle rules the 
world, somebody is rocking that cradle, and nine times out of 
ten, it isn't the mother or father that is at home.
    So we have got to look at other means by which we can 
support the family unit, so the family unit can set those 
morals and those values and those traditions that are inherited 
in families.
    I am afraid, Chairman, it is not the village that raises 
the child. It is the family that raises the child.
    And any time you destroy the family unit with welfare or 
any other subsidies, or any other give-away programs or 
entitlement programs, you are going to make a detriment to this 
country and to the very fabric that holds this country 
together.
    Whether it is a village, whether it is a community, or 
whether it is this Nation as a whole, I think the policies have 
to be so that they encourage the family, the male, the female 
and those children that they have spawned, to help them raise 
those children in a safe environment.
    Chairman Shaw. Thank you. I will yield to Mr. Christensen, 
who I think probably will want to say something about the 
marriage penalty tax.
    Mr. Christensen. Yeah, I know we are running late. Just 
going to make a few comments. Then I want to really applaud 
this panel. It has been an impressive panel.
    Madam Attorney General, what States are using this 10 most 
wanted?
    Ms. Del Papa. Probably are about seven or eight. I think it 
originated--we stole the idea. I believe it was from Rhode 
Island.
    There is a tremendous amount of collaboration that goes on 
between the Nation's attorney generals. Everything we do, we 
share. Likewise, they share with us.
    Many of the programs in the other States were in my 
testimony. I--due to time constraints, I didn't--these are some 
of the highlights of what other States are doing.
    Mr. Christensen. If possible, I would like to get your home 
page. I saw you had a copy of a page. I could always pull it 
up, but if you have got it right there, I would like it.
    If a foundation or private organization were to take on 
this 10 most wanted idea, if a State, like, say, Nebraska, it 
was not doing it, what kind of liability have you seen in this 
kind of public display of the 10 most wanted?
    Do you know of any?
    Ms. Del Papa. I am not aware of any liability.
    Again, we have worked very closely with the agencies, and I 
mean, there is a threshold of $10,000 you have to be in arrears 
there. I think the highest amount that was in arrears was over 
$80,000.
    Mr. Christensen. Where have you found the most, the most 
successful places, where you have posted these posters to see 
the best returns?
    Ms. Del Papa. For instance, I was in a--there is a wide 
distributive network for them. We also do a press conference 
when they are issued. It is that initial press conference that 
really helps call attention to it.
    You are always looking for ways to try to----
    Mr. Christensen. Grocery stores?
    Ms. Del Papa. We haven't gone to many in the private sector 
stores. Mainly in the DA offices and State facilities, but it 
is interesting.
    The number of--as I said, these were people who were 
previously unlocatable, and yet you can see of the worst, you 
know, top 24 cases, we have managed to get--I think capture 18 
of them, and also two criminal convictions out of this.
    Mr. Christensen. I applaud your work. I am going to take it 
back to the attorney general in Nebraska. I think this is a 
phenomenal program. If they don't do it, I have a foundation 
that would like to do it.
    So I applaud your efforts. Excellent testimony.
    Senator Washington, I like what you say. That is awesome.
    We need to get those words out around this country because 
those are the words that are making a difference in people's 
lives.
    My fatherhood initiative, that we are talking about some of 
the programs, boy, continue to talk about that, because that is 
what is going to make a difference.
    You know, as Chairman Shaw talked about the marriage 
penalty, we are on the verge of, hopefully, getting that 
through this year.
    Basically you are penalized about $1400 for a married 
couple filing jointly versus living together.
    And if that isn't a backwards approach to encouraging 
marriage, hopefully, we will get that done.
    Jan, Assemblywoman Evans, I want to just tell you, when I 
got to Congress in '94, the low-income housing tax credit was 
being considered to be abolished.
    I don't want to toot his horn too much, but John was the 
one that really worked to get that thing back on, and get it 
fully funded and increased.
    And so the low-income housing tax credit is a tremendous 
public/private partnership that works very, very well.
    And I think we have got it in a place now where it is going 
to continue to be there for a very long time.
    Jim, I tell you what. I will trade the second district of 
Nebraska for the second district of Nevada in terms of scenery. 
You have got a beautiful, beautiful district, and, Mr. 
Chairman, thank you for the opportunity.
    Chairman Shaw. Thank you.
    And I want to thank you, I want to thank this panel.
    I think we can certainly see, from the quality of elected 
officials that they have here in Nevada, why things are 
working, and we congratulate you and thank you for being with 
us this morning.
    I am going to talk out of turn. Being a grandfather of 
eight kids, I can tell what this young mother is going through 
right now, trying to keep this youngster, beautiful youngster, 
settled down.
    So you are on the last panel, but I am going to take you 
out of turn right now.
    Lonnie Halterman, will you come to the table with Devin 
Cramer as noncustodial parents from Sparks.
    Do you have copies of their testimony? We have a copy of 
Devin's testimony, which will be made a part of the record. We 
invite you to say what you see fit.
    Mr. Halterman. Good morning, Chairman Shaw, and members of 
the senate committee. I would like to thank you for having us 
here today.
    Mr. Christensen. Mr. Halterman, could you pull yourself up 
a little bit to the microphone and turn it on? Thank you.

  STATEMENT OF LONNIE HALTERMAN, NONCUSTODIAL PARENT, SPARKS, 
                             NEVADA

    Mr. Halterman. My name is Lonnie Halterman, and I am 20 
years old. Devin and I met in high school.
    During that time, I had problems with drinking and drug 
abuse, and I did some time in jail for this.
    I tried to better my life by going to Oklahoma. Devin came 
there to visit and see if we wanted to start a family there.
    But not long after she went home, she informed me that she 
was pregnant.
    My daughter was born August of 1997. During that time, 
Devin and I received--Devin was receiving--well, I moved back 
to Nevada, in December 1997, to take care of my 
responsibilities.
    And I still--I was still not doing well at that and ended 
up in court. The court referred me to the Employment Assistance 
program in January of 1998 and helped me get a job.
    With the help of my counselor, I was able to get interview 
clothes, write up resumes, receive referral for employment, and 
obtain bus tokens to get around town and look for work.
    I was also referred to Job Corps.
    After some testing, evaluations, I am happy to say that I 
have been accepted in Job Corps, and I will start in September, 
1998, and I have planned to get my GED and my job training as 
an electrician.
    While I was waiting for acceptance in Job Corps, I applied 
in April 1998, and I have been working steadily ever since.
    Devin also received help from my counselor. She helped with 
resumes, job referrals, and in emotional support, and I was 
employed.
    Once I was employed and able to support my daughter, Devin 
and I was able to talk and put our family unit back together.
    We have been stable as a family unit since then, and I am 
proud to say, we are looking to the future as a family.
    And I am glad the court referred me to the Employment 
Assistance Program.
    Through the program, and with the assistance of my 
counselor, both Devin and myself, we have been able to make 
positive changes in our lives and provide for us a stable, 
dependable home life for the family.
    Thank you for your time. I would like to answer any 
questions you may have.
    Mr. Ensign. Well, thank you. Thank you both for being here, 
and bringing your pretty little girl there.
    Chairman Shaw. She is pretty.
    Mr. Ensign. How old is she?
    Mr. Halterman. She will be a year the end of this month.
    Mr. Ensign. First thing I want to do is I want to commend 
you. You should be an example now of, other people that have 
been in your position who are now taking responsibility.
    I mean, you have fathered a child, and too often that is 
not the case these days.
    And I applaud you for now taking responsibility and trying 
to improve yourself, to be able to provide a good stable home 
for your family, and it is good to see you taking that 
responsibility.
    I guess one of the things--I want to just try to get into 
your brain a little bit, just because we have heard so much 
about, welfare reform. Is it working? Is it not working?
    What kind of an effect, did it have on you?
    Mr. Halterman. Like I said, there was--it was a time to 
where I could not get around.
    There was parts to where there was jobs where I could go, 
but I could not get around to do--I could not afford bus fare 
to go to the job interviews. I could not afford the clothes for 
the job interviews, stuff like that.
    It is kind of hard for a person that, you know, just like 
in my condition, which--which was on the streets, go to a job 
interview, if they don't have anything like this.
    Because, you know, you do got to be presentable to a job. 
You do got to have money to go to the job. Like I know you 
said, there is a lot of jobs out there.
    But it is the problem, as most the people do not have the 
benefits, like I did, that was able to get out there and do. 
Find the job. I was not able to get out there and do the things 
I was able.
    So if it was not for this, I wouldn't have had the clothes 
or be able to get around to get to the jobs.
    And that is what I--and resumes. I never knew how to do 
resumes. And my resumes helped, because I would be able to 
remember the dates and everything that I have work for.
    Mr. Ensign. I just want to, first of all, say that not only 
do I commend you, but I also think that you are an example of 
the difference between true compassion and just sending a 
welfare check every month.
    That welfare check would have trapped Devin and your 
daughter here, into a cycle of dependency. You may never have 
had to take responsibility, and now with some of this 
assistance, be able to transition.
    You know, you can give some hope to your child there and to 
your family. So I applaud you. I am glad that system is working 
for you.
    Mr. Chairman?
    Chairman Shaw. I just want to briefly, briefly add, this is 
what our fatherhood program is about. This is what we are 
trying to accomplish, and your looking forward to a family, I 
think is a wonderful thing.
    My wife and I had, who is with me today, she is back there 
in the second row. We just celebrated, day before yesterday our 
38th anniversary. I tell you, after you get over the first 30 
years, it is easy.
    I am going to pay for that remark. But we are delighted, it 
is wonderful to see the two of you together.
    And realizing what a joy it is to be a father, not only 
just a mother, but to be a father to a child and watch them 
grow up and share in that life, it is a great gift, and I 
congratulate you for seeing it.
    Mr. Ensign. I want to thank you both, and you can tell that 
Mrs. Shaw must be one heck of a woman to be able to put up with 
him for 38 years.
    But I want to thank you both for being here, and sharing 
your story because the reason it is important for people like 
you to testify is because you will give hope to those others.
    You may be, Lonnie, you may be the inspiration to another 
father, where maybe some of them weren't going to take the 
responsibility for their children.
    And you may be the inspiration that they needed toactually 
say, you know what? I did father that child, and I am going to take 
responsibility at that point.
    And so I just want to congratulate both of you for what you 
are doing, and to wish you the best.
    Thank you for being here.
    Mr. Halterman. Thank you.
    [The proposed statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.025
    
    [GRAPHIC] [TIFF OMITTED] T3767A.026
    
    Mr. Ensign. I want to call the next panel up.
    Myla Florence, Administrator, Nevada State Welfare 
Division; Michael J. Willden, Deputy Administrator of Field 
Operations; Nikki Firpo, Social Welfare Manager, Nevada State 
Welfare Division, Reno District Office.
    Mujahid Ramadan, Executive Director, Nevada Partners, Inc., 
North Las Vegas; and Dorothy Wilcox, employee, office of Dr. 
Leonard Shapiro, Reno Medical Plaza.
    We will hear first from Myla Florence, Administrator, State 
of Nevada State Welfare.

  STATEMENT OF MYLA C. FLORENCE, ADMINISTRATOR, NEVADA STATE 
                        WELFARE DIVISION

    Ms. Florence. Thank you, Mr. Ensign, and members.
    Mr. Ensign. If you would just remember about the five-
minute rule. We have a five-minute time, and we don't want to 
give you the hook.
    Ms. Florence. Thank you. Again, I am Myla Florence, 
administrator of the Nevada State Welfare Division.
    The welfare division is the State agency responsible for 
administering the Temporary Assistance for Needy Families or 
TANF program.
    Child support enforcement, Nevada's employment and training 
program, called New Employees Of Nevada or NEON, and the 
Welfare-to-Work Formula Grant, Child Care Development Fund and 
other low-income programs.
    Our mission is to provide quality, timely and temporary 
services enabling Nevada's families, the disabled and the 
elderly to achieve their highest level of self-sufficiency, a 
mission we have been pursuing since the early to mid-'90s.
    I would like to thank the committee for coming here so 
close to the second anniversary of welfare reform. It is an 
honor and a pleasure to be here with you today.
    Welfare reform, as you have heard, actually began in Nevada 
in 1993 when a welfare reform task force was convened.
    And this group laid the foundation for Nevada's make work 
pay system introduced by Governor Miller and passed by the 1995 
legislature.
    Nevada has reached out to the private sector to secure jobs 
for our clientele as new resorts have opened.
    Among the many accomplishments in the agency's efforts to 
partner with Nevada employers is the MGM Grand Hotel and 
Casino's 1994, 1995, hiring of approximately 900 recipients.
    Notable is the fact that 70 percent were still employed in 
a two-year follow-up conducted on this population.
    Today we continue as some of the newer properties have 
opened and plan to open.
    Properties being developed by Steven Wynn in Las Vegas have 
committed to hiring four to eight hundred recipients in 1998, 
and we are also working with the Venetian in Las Vegas to train 
recipients for that resort.
    Nevada experienced a drop in the aid to families with 
dependent children caseload prior to the inception of the 
national welfare reform legislation.
    The AFDC program reached its highest peak in March, 1995, 
with 42,700 recipients.
    By December, 1996, only four months after PRWORA was signed 
into law, Nevada's AFDC Temporary Assistance for Needy Families 
caseload had dropped 27 percent.
    We attribute this caseload decrease to a strong State and 
national economy, talk of the national welfare reform 
legislation, and the aggressive employment focus, such as 
applicant job search which we implemented in January 1996.
    You can see this slide depicts some of the significant 
events which have influenced the welfare caseload.
    As of July 1998, Nevada experienced a 42-percent decline in 
the AFDC/TANF population since March 1995.
    Noteworthy, as mentioned earlier, this is in the face of 
the fact that our caseload declines are occurring in a State 
with the fastest growing population in the Nation.
    For persons approved for TANF assistance, the complete 
screening assessment of their employment skills, work 
experience, training and child care needs are conducted.
    Every person undergoes a strength-based assessment where 
barriers to employment and potential for issues such as 
domestic violence and substance abuse may be discovered.
    Welfare recipients are also referred to vocational 
rehabilitation services, health and mental health services, 
adult basic education, and others within the government or 
nonprofit agency systems as needed.
    Every possible step is taken to link the client with the 
help they need to become self-sufficient.
    If our clientele comes to us job ready, we help get them a 
job. If they come to us with barriers, we provide the needed 
services to assist them.
    What kind of jobs do they get? As you can see from this 
slide, sales, food services and clerical positions comprise 
about 60 percent of the jobs obtained.
    The welfare to work program made possible by the balanced 
budget act of 1997 was perfect timing for Nevada, and we took 
advantage of it, becoming one of the first five States to 
receive approval of its welfare to work State plan in January 
of 1998.
    Nevada is unique in the Governor's designation of the TANF 
agency as the agency to administer welfare to work funds.
    Mr. Ensign. If you could summarize.
    Ms. Florence. I would just make one point about child care. 
We appreciate the enhanced funding provided by Congress for 
child care. Needless to say, the demand already exceeds the 
available funding for child care.
    Like to summarize just with some quick recommendations.
    We believe TANF block grant fundings must be maintained. We 
would like consideration for work participation calculations to 
consider some supportive services, such as English as a second 
language, parenting, and other kinds of programs that enable 
people to maintain work, maintaining the welfare to work 
funding beyond the year 2000, and, of course, increased child 
care funding.
    Thank you.
    [The prepared statement and attachments follow:]
    [GRAPHIC] [TIFF OMITTED] T3767A.027
    
    [GRAPHIC] [TIFF OMITTED] T3767A.028
    
    [GRAPHIC] [TIFF OMITTED] T3767A.029
    
    [GRAPHIC] [TIFF OMITTED] T3767A.030
    
    [GRAPHIC] [TIFF OMITTED] T3767A.031
    
    [GRAPHIC] [TIFF OMITTED] T3767A.032
    
    [GRAPHIC] [TIFF OMITTED] T3767A.033
    
    [GRAPHIC] [TIFF OMITTED] T3767A.075
    
    [GRAPHIC] [TIFF OMITTED] T3767A.035
    
    [GRAPHIC] [TIFF OMITTED] T3767A.036
    
    [GRAPHIC] [TIFF OMITTED] T3767A.037
    
    [GRAPHIC] [TIFF OMITTED] T3767A.038
    
    [GRAPHIC] [TIFF OMITTED] T3767A.039
    
    [GRAPHIC] [TIFF OMITTED] T3767A.040
    
    [GRAPHIC] [TIFF OMITTED] T3767A.041
    
    [GRAPHIC] [TIFF OMITTED] T3767A.042
    
    [GRAPHIC] [TIFF OMITTED] T3767A.043
    
    [GRAPHIC] [TIFF OMITTED] T3767A.044
    
    [GRAPHIC] [TIFF OMITTED] T3767A.045
    
    [GRAPHIC] [TIFF OMITTED] T3767A.046
    
    [GRAPHIC] [TIFF OMITTED] T3767A.047
    
    [GRAPHIC] [TIFF OMITTED] T3767A.048
    
    Mr. Ensign. Thank you.
    Mr. Michael Willden.

   STATEMENT OF MICHAEL J. WILLDEN, DEPUTY ADMINISTRATOR OF 
  PROGRAM AND FIELD OPERATIONS, NEVADA STATE WELFARE DIVISION

    Mr. Willden. Mr. Chairman, I am Mike Willden, deputy 
administrator for the welfare division.
    I would also like to thank you for this opportunity to be 
here and provide a few brief comments about the division's 
ongoing need to change the way we do business.
    Specifically, the training of our frontline workers.
    Myla mentioned our mission at the welfare division is to 
provide quality, timely and temporary services enabling Nevada 
families to achieve their highest level of self-sufficiency.
    If you take a minute to think about that mission statement, 
four things come to mind.
    First, we have to be committed to self-sufficiency.
    Second, we must want to help, which deals with our attitude 
and our contact with the clients we serve.
    Third, we must know how to help. We must have the skills 
and ability to help the people we serve.
    Finally we must do our work timely, accurately, and promote 
the program integrity.
    Over this last 25 years, we have trained eligibility 
workers to simply determine eligibility and the amount of 
benefits.
    Until recently, employability was not integrated into the 
eligibility process, nor were social workers available to help 
families with complex social programs.
    Welfare reform has demanded a retooling or change in these 
processes. I would like to quickly talk about three things we 
have done in Nevada.
    First, we are one of eight States to receive a cultural 
change grant.
    We have received approximately $250,000 from the Department 
of Health and Human Services, office of child and family 
services.
    We are very appreciative of getting these funds, and it has 
enabled us to do training over the last six months.
    Nevada has primarily used our grant to provide a 40-hour 
training course to all frontline workers and supervisors.
    We contracted with Mid-America Consulting Group, to tailor 
their product to meet Nevada's needs. We trained 30 of our own 
frontline trainers.
    And we then set out to train all frontline workers in the 
new process, the new culture of welfare. This training 
emphasizes the change from the old eligibility system to the 
new emphasis on work and self-sufficiency.
    Finally, I would like to indicate, the training will be of 
no value unless we evaluate whether or not the exchange of 
information across the worker's desk to the client that we 
serve is of benefit.
    This evaluation will occur this coming month, and we hope 
that we will be able to come out with future recommendations 
and areas that we need to make additional change.
    Second, we have opened a professional development center in 
Las Vegas. Mr. Ensign commented about the population modifier.
    In the TANF grant, we are using the population modifiers to 
fund training centers for our frontline workers. We have one 
open in Las Vegas that opened last February.
    This includes an academy for all frontline workers where 
they learn to do business from A to Z. This is largely 
different from the way we did business in the past, where we 
would bring an employee in, buddy them up, give them OJT and 
expect them to do their job.
    The academy will be a huge change in the way we do 
frontline training.
    Also included in the academy are several issues where we 
marry up with our client training.
    The academy houses several lecture rooms, automated system 
labs, and we use those labs to not only train the clients in 
work efforts and employment training efforts, but our own 
staff.
    Also included in the professional development center is on-
site child care, we are now in the business ofremodeling the 
facility and doing construction there, but this will be a huge 
cornerstone to the outcome and the product that we have produced there.
    Finally, I would like to talk about our workers' 
certification program.
    We have contracted with the University of Nevada Las Vegas 
to provide additional frontline workers training. When I say 
frontline worker, this is eligibility workers, employment and 
training workers, and child support workers.
    Each of these individuals will go to 32 hours of core 
courses, where they will learn the principles of public 
welfare, program policy and procedures, technical and 
quantitative skills, communication skills, interpersonal 
effectiveness and achieving personal excellence and transition 
to leadership.
    In addition to the core courses, staff will be eligible to 
attend 27 hours of expanded course work. If they complete each 
of these courses, they will be eligible to receive a 
certificate in professional development, and it will also 
improve their knowledge and skills to help families become 
independent.
    In summary, I would like to close with the comment that we 
are cognizant that doing business now is extremely different 
than the way we have done it for the last 25 years.
    It requires a totally different type of worker to deal with 
the issues that are involved in welfare reform, and we would 
like to recommend that Congress and the administration continue 
to support ways to improve frontline worker training.
    We also are recommending formal technical assistance 
programs where States can share the positive things that other 
States have put in place.
    I would suggest to the committee that the US Department of 
Agriculture Food and Nutrition Service has an excellent State 
exchange service that I believe could be modeled for TANF, and 
it would be an excellent tool.
    I thank you for this opportunity, and I am available for 
questions.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.049
    
    [GRAPHIC] [TIFF OMITTED] T3767A.050
    
    [GRAPHIC] [TIFF OMITTED] T3767A.051
    
    [GRAPHIC] [TIFF OMITTED] T3767A.052
    
    [GRAPHIC] [TIFF OMITTED] T3767A.053
    
    Mr. Ensign. Thank you, Nikki.

STATEMENT OF NIKKI FIRPO, SOCIAL WELFARE MANAGER, NEVADA STATE 
             WELFARE DIVISION, RENO DISTRICT OFFICE

    Ms. Firpo. Mr. Chairman, committee members, my name is 
Nikki Firpo, and I am social welfare manager for the Nevada 
State Welfare District Office in Reno.
    I was asked to provide a view of welfare reform impacts 
from the local level.
    I feel well qualified to do this, as I have been in a field 
office or representing a field office for the last 20 years in 
both child support enforcement and eligibility programs.
    In the Reno district office, we have processed 
approximately 475 TANF applications. Each month we have an 
ongoing TANF caseload of approximately 1750.
    I was an eligibility worker years ago when self-sufficiency 
was not the buzz word. We followed the guidelines to the letter 
when determining to what programs an applicant was entitled.
    We made home visits when appropriate, but we did not delve 
deeply into the lives of clients. Decisions were based on the 
application, the interview and collateral contacts.
    Case actions were solely related to eligibility criteria. 
We did not suggest to the clients they should be working.
    Welfare was an entitlement program. If someone was 
eligible, we provided benefits.
    We are now in a new world of welfare. Workers reorganizing 
their workday to spend more time with clients. They help the 
clients identify issues and become familiar with clients as 
parents and families.
    Their casework is no longer black and white, but filled 
with multicolors representing strengths, problems, barriers and 
achievements. They work through the processes, leading clients 
through training and on to employment.
    The workers are the rule books, the cheerleaders, the 
referral sources and the providers of temporary benefits.
    Some workers have adjusted favorably to the new 
environment. Under the previous rules they felt stifled when 
they were only dealing with obvious aspects of the clients' 
lives, the part revealed on our application.
    They are now challenged with the problem-solving areas. 
These areas include how to prepare for employment, how to 
juggle work and parenting, how to handle emergencies, et 
cetera.
    Because they are part of the clients' successes, the 
process is more enjoyable. They have pleasure in witnessing the 
increase in self-esteem of our clients as these people become 
employed and take charge of their lives.
    Other workers have struggled with the change. They have 
found it difficult to balance the work load with the 
newemphasis on partnership with the clients.
    Some have become unsettled with the amount of information 
they receive and must process. One worker shared with me the 
conflicts she felt as she discussed the molestation of a 
client's grandchildren with them.
    She felt unprepared and unworthy to play such an important 
role in the client's life as to recommend counseling.
    She knew she had to develop a plan with the client, but was 
in tears when the interview was over. The whole process became 
overwhelming to the worker.
    I think we have to recognize all staff will not be 
comfortable in the new roles.
    Another important measurement is the acceptance of welfare 
reform issues by the clients.
    Many of them do not believe some welfare rules apply to 
them. They have tested the system and have discovered sanctions 
are really in place, and if they do not comply, it does not 
take too long to lose their cash grant.
    There are many who doubt the certainness of time limits. As 
I have talked with clients, they believe it might happen to 
others, but if they are discontinued, there will be another 
program available.
    Those successful clients who have become employed want us 
to continue to hold firm with the new rules because their 
friends and neighbors will be better off once they are working.
    As the process has worked for them, it will certainly work 
for others.
    In Reno, we have worked hard on our community partnerships, 
including other agencies and potential employers.
    We have job developers and employment and training 
counselors working with the private sector to create ways for 
our clients to be interviewed for jobs.
    We have recognized the need for our clients to be able to 
keep their jobs, and we have a new job retention contract in 
place with our local JTPA agency.
    The clients are trained in goal setting, money and time 
management and workplace norms and expectations. We should be 
seeing the results in job retention over the next few months.
    It is interesting to note, although transition is 
difficult, the majority of staff and clients want it to work.
    This is seen as a turning point in welfare history. As we 
endeavor to create positive change, the little achievements we 
have observed keeps all of us motivated.
    The clients are proud of themselves and start to believe 
that the road to success is not so steep and not so rocky. 
Self-sufficiency is reachable to them and to others.
    We appreciate the flexibility Congress has given us which 
enables us to shape our program and our services as needed.
    Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.054
    
    [GRAPHIC] [TIFF OMITTED] T3767A.055
    
    [GRAPHIC] [TIFF OMITTED] T3767A.056
    
    Mr. Ensign. Thank you.
    And I would like to state a word about Nevada Partners.
    Right during the whole welfare reform debate we were doing 
there in Congress, I visited Nevada Partners. There was a class 
called the women in transition class, and there were 30 to 40 
women in that class.
    And that was at a time when we were being called all kinds 
of evil things, throwing women and children into the street, 
and accused of just being hard-hearted, mean-spirited, whatever 
other things that you can describe us as.
    There were cartoons and editorials across the country that 
really lambasted us for what we were doing.
    And yet in that class, I never will forget, several of the 
women actually thanked us just for discussing welfare reform 
and saying that there was going to be an end to entitlement.
    Because that is what got them to come to that class, and 
they were so excited about what they were going to be doing. 
They were going to be changing their lives, and the lives for 
their children, and I never will forget that day.
    I brought that testimony back to the Chairman at that time 
and shared with him, because we were being beat up so badly, 
that we kind of needed the encouragement to go on, as well.
    So I thank you for being here.

   STATEMENT OF MUJAHID RAMADAN, EXECUTIVE DIRECTOR, NEVADA 
                PARTNERS, INC., NORTH LAS VEGAS

    Mr. Ramadan. Thank you, Congressman.
    Mr. Chairman, Congressman Christensen, on behalf of 
Governor Bob Miller, the chairman of the board of Nevada 
Partners, and founder of it back in 1992, we were spawned out 
of social unrest in southern Nevada.
    Since that time, it has become part of the big component of 
what was identified as an organic whole of getting people to 
transition successfully from welfare and into the work force.
    To date, through the private sector, Nevada Partners has 
invested over $9.5 million in Nevada Partners, and we placed 
well over 4,500 people to work, about 40 percent of which 
happened to be on welfare.
    Of course, it was noted earlier that the people who were 
placed at the MGM, the 900 came through Nevada Partners life 
skills pre-employment, postemployment preparation.
    And that is largely where Nevada Partners gives a focus to, 
is how to shift the paradigm of the unemployed, always on 
welfare, successfully into the work force.
    So in discussion of welfare reform, it has become necessary 
to encompass some of the things that you already know and put 
them into a context of welfare reform, so we can take the 
actions that will truly make an impact on the lives of the 
individuals.
    As Congressman Ensign has made note, these individuals were 
really encouraged by the fact they were going to have to now go 
into the work force.
    Human behavior, as we realize, is based on three levels of 
components.
    The base level has to be physical reaction to our desires, 
and that is where we reside.
    This is where most of the information regarding our 
physical senses, taste, touch, smell, sight and hearing, take 
place.
    Above this level is our emotional or implicate level, where 
emotional responses and desires are experienced.
    The upper level contains the working knowledge of what is 
needed to be done, how to accomplish it.
    This is what our life skills and pre-employment and post 
employment preparation focuses on.
    Within the welfare culture, there is a group that had been 
created. There are circumstances we would like to change, and 
we have been successful in doing so.
    It becomes necessary to realize that a forced change in 
behavior is simply that: Forced change in behavior. It is 
possible through the changes in the systems of effect to effect 
temporary change on the behavior of people.
    But until such time as an impact is made on that emotional 
level, we cannot truly expect the change of paradigm and thus 
lasting difference to be made.
    In making a change in an individual's paradigm or how they 
experience life, it is crucial to understand their origin.
    Most of us are pretty much aware that a change in 
perception is what it takes to make a change in a person's 
reality. That makes a difference between someone who is 
dependent upon a system, as opposed to someone who makes his or 
her own way out.
    The question that is often raised, or the issue most 
misunderstood, is how to penetrate the misconceptions and clear 
away the baggage to create a positive result.
    I would like to bring to your consideration the effects of 
establishing a human response pattern.
    In recognition or processing of a stimuli, certain areas of 
our human behavior are activated, and a series of reactions 
occur in the human personality due to the firing of how our 
brain functions.
    An experiment at the University of California, San 
Francisco, revealed some pertinent fact about the brain and 
habituation.
    In the study, primates were used to illustrate the point, 
as they tend to provide the best model for studying human 
behaviors.
    Subjects were told to use one finger to press a button and 
reap food as reward. This continued to produce a learned 
response: Press the button with this finger and get the food.
    The subjects learned this behavior sequence and related it 
to the pleasurable outcome of gaining rewards.
    The part of the brain stimulated in this response was also 
studied. It was found, through habitual stimulation, this part 
of the brain developed deeper pathways or patterns in the 
brain's response.
    Thus, in the absence of food as a reward, the subject 
continued to use the same finger to press the button, having 
associated it with a pleasurable event.
    Human beings behave in much the same way when it comes to 
association. We develop brain response patterns that dictate 
much of our behavior.
    This is exemplified in the phantom limb syndrome.
    These continued behaviors that have been developed over a 
period of time we can see often in the welfare population.
    These neural pathways can be forged that are particularly 
difficult for this population to overcome.
    In the case of welfare, brain response patterns have often 
been created over periods of generations. To simply remove the 
financial compensation will not extinguish the paradigm. It 
then becomes necessary to impact the perceptions that lead to a 
voluntary change in behavior.
    A new human response pattern can be developed into a 
complete new way of seeing life. Only in this process will we 
truly impact many individuals' lives.
    Oftentimes, it takes a discontinuance of habitual behavior 
to see the involved thought process for what it really is.
    It is difficult to recognize this behavior response pattern 
while we are directly involved in it. As with many people on 
welfare, it is difficult to see the damaging effects of 
welfare.
    Consider our adolescent paradigms and how we now see it 
from the adult point of view.
    In my summation, the Nevada Partners' effort is to be able 
to bring people new life skills and to help alter how they 
experience and how they view life.
    We have a mirror inside of our facility, which is about 
20,000 square feet, 14,000 which is dedicated to life skills, 
pre-employment, postemployment preparation.
    And above the mirror there is a sign that says: Would you 
hire this person? And the mirror really speaks back to you 
itself. If you can't say you would hire the person, no employer 
would.
    We also look at that, and the fact we have the luxury 
insouthern Nevada of having a rich, growing economy in our efforts to 
help people work gainfully in the private sector, get people into the 
work force.
    But the deal is we have to send them good, sound people. We 
work with Nevada State welfare, and the culinary people have to 
go through partnership, pre-employment, postemployment 
preparation prior to going into training to go to success into 
the work force.
    So on behalf of our board and the private sector 
participation, all of those who have participated with Nevada 
Partners, we appreciate your allowing this testimony.
    Congressman Ensign was very involved in Nevada Partners.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.057
    
    [GRAPHIC] [TIFF OMITTED] T3767A.058
    
    [GRAPHIC] [TIFF OMITTED] T3767A.059
    
    Mr. Ensign. Thank you.
    Now, I really think one of the stars of the day, Dorothy 
Wilcox, who is a former welfare recipient and who is truly the 
personification of what the welfare reform bill was supposed to 
do, both on the State and Federal level.
    And we invited you here to tell your story because we also 
want you to be an encouragement to others who are on welfare 
currently, and we want you to be an inspiration for people to 
be off. Look forward to your testimony.

 STATEMENT OF DOROTHY WILCOX, EMPLOYEE, OFFICE OF DR. LEONARD 
                  SHAPIRO, RENO MEDICAL PLAZA

    Ms. Wilcox. My name is Dorothy Wilcox. I have been on 
welfare, on and off on since 1992.
    I would get off welfare, when I could support myself by 
providing child care for other people's children. But I would 
get very depressed and not be able to continue. Then I would 
reapply for welfare.
    Have three children, two boys and a girl, ages four, nine 
and thirteen. My youngest son goes to daycare each day, and my 
daughter is in year-round school. My oldest son is mature 
enough to stay home during the day.
    I last came on welfare in June 1997. I went to an 
employment and training orientation in August 1997.
    The employment and training worker saw I had some skills, 
and placed me in a community work experience program at 
Catholic Community Services.
    I stayed there for three months. I would walk my youngest 
child to daycare each morning and ride the bus to work, to my 
work site. After a while, my worker and I decided I needed to 
get more skills training.
    I enrolled in a Medi-soft program at my local community 
college. This course taught me how to do medical billings, set 
up appointments for doctors and the technical language of the 
medical field.
    I walked to school each day for six weeks. The classes were 
concentrated, and I was in school from eight to five.
    Once I had graduated from the program, I applied for two 
jobs and was not hired. The employment and training worker and 
the counselor encouraged me a lot.
    They would not let me doubt myself. One of the companies 
that had not hired me called back because the person they hired 
did not work out.
    So I went to work at the Reno Medical Plaza as a patient 
coordinator on July 7th of 1998.
    I make 7.50 an hour and work full-time. I still walk my son 
to daycare every day and spend 45 minutes, one way, including 
transfers, taking the bus to work.
    I tell my friends who don't have cars that you don't need a 
car to get a job because I have done it. I have a lot of self-
esteem now.
    I know I can support my children. While I was on welfare, 
the support enforcement workers were able to get me a court 
order for child support.
    When my cash grant stops next month, I will start getting 
my child support directly, which is over $200 a month. I also 
will begin receiving Social Security survivors benefits of $524 
for one of my children.
    With this income, in addition to my job earnings, I believe 
I can provide for my family.
    I have gained a lot because of welfare reform. I now have 
self-esteem, training and skills I can use on the job.
    Before I thought no one cared. There were very few training 
opportunities. Now I have been able to get just about anything 
to get me going.
    My workers pushed me and made me believe in myself. They 
kept me going when I didn't think I would get a job. Now I am 
almost there.
    Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.060
    
    [GRAPHIC] [TIFF OMITTED] T3767A.061
    
    Mr. Ensign. Thank you very much, Dorothy.
    I enjoyed spending time with you at your workplace. I also 
want to thank your employer for allowing you to be here today, 
but also for believing in you.
    And, by the way, I talked to him this morning. He said you 
are doing a great job, so that is very encouraging.
    I have a few questions for various members of the panel.
    First of all, I do want to start with you, Dorothy.
    You mentioned this morning, when you were being interviewed 
by one of the news stations, you mentioned that, when they 
asked you about the welfare reform bill, and your comments, I 
just maybe want to share what your comment was about whether or 
not this welfare reform bill should have been enacted.
    If it was not, where would you find yourself? And should we 
ease up on people, I guess.
    Ms. Wilcox. I don't think you should ease up on people. I 
would not be here today if it was not for them. I would still 
be sitting at home depressed. They made me believe in myself 
and know that I can do it.
    They need to be tough on these people because they think 
they can sit at home collecting this money, which is not doing 
anything.
    Mr. Ensign. You know, your comment was, also, about 
transportation. That is one of the big things that people talk 
about is transportation, and they don't have a car. They can't 
get to work.
    And you travel 45 minutes on a bus doing various transfers, 
and you have got to walk to child care. You have got all the 
obstacles that everybody else used for excuses.
    And all the people that would criticize us for doing this 
welfare reform bill, you are overcoming those obstacles.
    And I thought it was interesting, your comments that if we 
ease up on them, then they are not going to use these excuses 
forever.
    Ms. Wilcox. Right.
    Chairman Shaw. I wanted to pursue one side that we really 
haven't touched on.
    How old are your children, Dorothy?
    Ms. Wilcox. Four, nine and thirteen.
    Chairman Shaw. How has your going to work affected their 
attitude towards life and towards you?
    Ms. Wilcox. Before, when they were on welfare, they didn't 
get out much. They weren't happy, and they knew I was not 
happy.
    Now that I am working, they are--I see their attitudes have 
changed towards life. They are really happy now, and they get 
out and do stuff. I can take them places every weekend, to the 
movies and do more things with them.
    Chairman Shaw. At one of our hearings in Washington, I 
remember--I think it was Eloise Anderson, who is the welfare 
director of California. I think she is the one that said this. 
But it was somebody of equal position, if it was not her.
    She was talking about how the children would tend to go to 
school and brag, saying, ``My mama went to work today,'' which 
is really a wonderful thing to see.
    So I think the role model that you are now, is infinitely 
higher than the role model you were when you were home 
depressed, watching the reruns.
    So I congratulate you. Thank you.
    Mr. Ensign. Thank you. I have a couple other questions.
    First of all, Mujahid, could you just do me a favor and 
comment on this population because it seems like you deal with 
a lot of different populations.
    Not just the ones like Dorothy who was in and out. She, 
motivated herself to get out. Therefore, we have given her the 
tools to get off welfare.
    But can you comment on what we talk about, that 50 percent 
or whatever of the welfare rolls that are going to be, on there 
for a long, long time, do you deal with those?
    Mr. Ramadan. Yes, we do. It is going to be--actually, it 
has been mentioned this morning, but to reinforce that fact, 
going to be a more challenging population.
    Two years and beyond, you are going to find a great deal of 
difficulty because it becomes a pattern of behavior, not only 
physical behavior, but an emotional makeup, and that paradigm 
has to be shifted.
    And so that is the population we are now going to begin to 
engage, and it is going to be a population we are going to have 
to go through the more intensive life skills and employment 
preparation to help break the way the individual is seeing 
life.
    But the key is helping them to see that the resistance that 
you are getting, the opposition that this young lady has talked 
about, really, there is that help to help them reinterpret 
their life experiences.
    So it takes a series of life skills, and, of course, it 
takes building into that a support base of case management, 
through welfare. It takes building in mentoring.
    And in the employment arena, we have a luxury in southern 
Nevada where the business community, with the new opening of 
the Bellagio, the upcoming Venetian, all of those properties 
are working with Nevada Partners, welfare and others, to help 
put in the type of components we need in order to make that 
successful transition. It is a hope.
    But when you are dealing with a challenged population, you 
also find that population will generally suffer from greater 
domestic violence, greater emotional abuse.
    Sometimes you are going to find drug and alcohol problems, 
have greater difficulties in managing, dealing with child care, 
and just managing their day-to-day life, in terms of time 
management, money management, communications skills, not only 
interpersonal communication skills, but intrapersonal 
communication skills as far as they communicate with 
themselves.
    So there is a whole host of things that we have to 
encounter in their life skills, if we are going to be, I think, 
we are going to be successful in helping them to make that 
transition.
    Mr. Ensign. I just have one question for Myla.
    You mentioned child care funding, needing more of it.
    You have 42 percent fewer families now on the welfare 
rolls, and we fixed--1995 is the year that was our highest year 
ever, and we fixed that as our formula year.
    And one of the reasons we did that, we didn't want to 
penalize States that were going to make--as they went forward 
and decreased, we didn't want to say to a State, as you get 
better, we are going to take your money away.
    We knew, first of all, that a lot of these difficult 
families were going to take more time.
    As a matter of fact, meeting in your local offices, 
youknow, I had a lot of meetings down in southern Nevada with the local 
welfare workers themselves and listened to them.
    And that was one of the things they brought up to me was, 
fine, when you get through these initial people, like the 
Dorothys, you can get them off.
    When you get these challenging cases each individual is 
going to have to take more time to work with them.
    And the training centers, Michael, that you mentioned, and 
getting these people, trained to deal with these tougher 
people.
    So we know there is more money there, but we also put a 
huge amount of money in for the block grants for child care.
    But also, you can transfer from block grant to block grant. 
It just seems with 42 percent fewer people, that there should 
be enough money to do all of the things that you need to do.
    I guess I am having trouble understanding why you were 
asking now for more money.
    Ms. Florence. Well, we will be transferring TANF funds into 
child care, but, again, it is not only child care for families 
that are on public assistance or formerly have been on public 
assistance.
    But there is that growing low-income group that were 
previously subsidized, but now with the focus on the public 
assistance population, child care is just one of those things 
that, I think, we will struggle with for some time to come.
    There is an extraordinary demand. It is very expensive.
    This is another area where I do think the private sector 
needs to step up. They will find they will be more productive.
    Mr. Ensign. So you are not talking about TANF, within the 
welfare reform?
    Ms. Florence. Talking child care as a whole.
    Mr. Ensign. Within welfare reform there is plenty of money 
for these people coming off.
    Ms. Florence. For people on assistance and currently for 
people coming off.
    Mr. Ensign. Correct.
    Ms. Florence. But that population will grow.
    Mr. Ensign. That is a separate problem, and I think that we 
need to keep them separate.
    I mean, it is all in child care, but it is a separate 
problem than the welfare reform.
    Because the people that are coming off, what we try to do 
is provide that revenue source to be able to get them off and 
provide the child care, like, Dorothy, and that is adequate, 
from what we understand.
    Ms. Florence. For that population, yes, but generally, 
still a problem.
    Mr. Ensign. Okay.
    Mr. Chairman or----
    Mr. Christensen. Nikki, on the apologists and naysayers on 
the welfare reforms over the last two years, what do you say to 
those people?
    We have made such giant strides, so many things are 
happening that are positive, the Dorothy story and what Nevada 
Partners have been doing, how do you counter the naysayers?
    Ms. Firpo. I am surprised that there are so many naysayers 
still because to me it is success after success after success.
    Truly, the workers do see these difficult clients, and it 
becomes a challenge, but they spend more time, and they reach a 
little deeper, and they get a little further.
    I just think our successes will prove out.
    Mr. Christensen. Also, I have a question from the last 
panel, three to six o'clock syndrome.
    Whether it is Mujahid, or Dorothy or Myla, or Nikki, what 
suggestions might you have for us on the three o'clock to six 
o'clock problem with increased juvenile problems, as well as 
the whole situation with teenage pregnancy increases?
    Anything that we should be doing there, federally or 
statewide or on a private basis?
    Mr. Ramadan. Well, on a statewide basis, obviously, we can 
look at expanding the operation and/or the utilization of 
schools into those hours while parents are working.
    Obviously, we need to become more involved in getting the 
private sector to do more things, like mentoring programs, not 
only for boys, but for the girls.
    We have the luxury of Nevada Partners, the 7,000 square 
foot building, or portion of the building is dedicated to 
Nevada Partners, Sugar Ray Leonard boxing gym, this becomes a 
delinquency prevention program that is managed by an 
international boxing referee, Richard Steel.
    We probably occupied some 60 boys per day in that program, 
but it is expanding those type of programs. It is introducing 
more Boy Scout/Girl Scout programs into low-income, at-risk 
communities, expanding YMCA programs, outreach, these type of 
communities.
    I think we have to look more to those communities. I think 
it is engaging the religious community to do more in after-
school tutoring programs to occupy the time of these students, 
and in doing so, you can provide the type of developmental 
programs.
    It talks about parenting, talks about being a husband, 
talks about the responsibility of being a husband, and what the 
positive and long-term outcome happens to be.
    Of course, the negative side in this is if you are involved 
in teen pregnancy and immoral and illicit sexual behavior, I 
think you are talking about looking at getting communities to 
be more involved, engaging churches, engaging programs like 
YMCA, like Boys and Girls Clubs, expanding these into 
communities and getting those traditionally more based outside 
of those communities that have been challenged, expanding those 
programs within these communities.
    Mr. Christensen. Thank you.
    Mr. Ensign. I just want to point out one thing before I 
turn it over to the Chairman here.
    Want to ask unanimous consent that this be made part of the 
record. The Church of Jesus Christ of Latter-day Saints has 
truly a remarkable program with their own church. They have 
their own welfare program that is completely faith-based.
    And, Mujahid, you even mentioned getting faith-based 
organizations involved in the mentoring program. This is, truly 
something. There is a lot of accountability there, as well.
    And as part of their efforts, I want to submit an article 
that was in the Wall Street Journal, June 26, 1998, called Help 
in Hard Times, by H. David Burton.
    I just want to make that part of the record, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.062
    
    [GRAPHIC] [TIFF OMITTED] T3767A.063
    
    Mr. Ensign. Do you care to inquire?
    Chairman Shaw. Yes, sir.
    Ms. Florence, your testimony describes how your agency is 
providing services to pregnant and parenting teens.
    We heard from the one of the witnesses, the first panel, 
that Nevada is in a very bad position with regard to the 
statistical data on out-of-wedlock births.
    What exactly is your agency doing on this, and have you 
seen any results that you would care to share with this 
community?
    Ms. Florence. The STARS program, which began in 1996, 
STARS, is a partnership with University of Nevada Reno and 
University of Nevada Las Vegas, where social work students, 
both at the master's and bachelor's level, work with these 
teens, teen parents, kids having kids.
    They have followed the families through a semester, and 
letters that I have received from both the students and clients 
indicate that there is a real meaningful connection between 
these parties.
    Noteworthy, I think, mentioned in the testimony, eight of 
those teens have had second children, but overall, the purpose 
of the program is to help a person go through either high 
school or complete their GED, link them with various job 
training programs, and essentially give them a good step on 
life.
    Chairman Shaw. I would like to underscore something that 
both Michael and Nikki made reference to.
    And that is the question of how the job description has 
changed from welfare.
    Dr. Haskins was telling me about a welfare worker that he 
met in Wisconsin, that said, ``Now I can do the thing I really 
went to school for.''
    Today, when you go into a welfare office, they don't just 
sit you down and try to describe to you all the benefits that 
you are quote, entitled, end quote, to.
    But they come, and I assume, and I am sure this is true in 
Nevada because of just listening to the two of you and what you 
do, that you say you need a job, and I am here to help you.
    We saw where the young man that was with his child, sitting 
before this committee a few moments ago, was talking about the 
needs for clothes, making resumes and things like that.
    And it is really wonderful what you people are doing, and I 
certainly want to congratulate all of you for it.
    Mr. Ensign. Thank you.
    Before we dismiss the panel, the last comment I would like 
to make was, as a matter of fact, I heard this so often when I 
visited the welfare offices.
    That there was, the paradigm that you talk about, it was 
almost built in--that there was an encouragement of people to 
stay on welfare.
    I never will forget this one lady who worked for me. She 
came to me, and she was a single mom with a small child, and 
she had just gotten off welfare, and you know how Dorothy was 
getting some of the transitional help.
    And she had gone in there and said she had already got her 
job, but she needed some help, like in child care.
    And what they told her at the welfare office was, ``Well, 
why are you getting a job? You can have all these other things, 
and you are crazy to get a job.''
    You know, we have all these other types of--and I never 
will forget her telling me that. That really stuck with me.
    The whole incentive had become part of the paradigm, 
really, of working in the welfare office. It is an entitlement. 
It is easy.
    You know, ``I can help you by getting whatever I can get 
you there, but you can't go to work.''
    And that is why I am so excited about the welfare reform 
effort at all levels, and you can really see it at your levels, 
and the local offices, they are excited about it.
    I mean, the people that are staffing, they like their jobs 
better now because they actually feel like they were helping 
people instead of destroying people now.
    Mr. Ramadan. Congressman, I believe this is the auxiliary 
benefits that we are going to begin to encounter in the years 
to come.
    That is, young men are going to become more sexually 
responsible with their behavior and become more engaging in 
terms of taking on their responsibilities because no one is 
going to take care of this responsibility that you have 
actually brought about yourself.
    I think this is going to bring about a great deal of 
discipline within the fabric of many communities and shift the 
entire paradigm as to what individual responsibility is.
    And what family responsibility happens to be, I think, is 
going to be challenging. But I think there are auxiliary 
benefits that, as a community and as a Nation, as a whole, we 
are going to benefit from.
    Mr. Ensign. Well said.
    I want to dismiss this panel, and call up Thomas Leeds, who 
is the Child Support/Paternity Hearing Master, Eighth Judicial 
District Court of Nevada in the Nevada Division, Las Vegas.
    And, Myla, you are staying for this panel, as well, right?

  STATEMENT OF THOMAS L. LEEDS, ESQ., CHILD SUPPORT/PATERNITY 
   HEARING MASTER, EIGHTH JUDICIAL DISTRICT COURT OF NEVADA, 
                        FAMILY DIVISION

    Mr. Leeds. Mr. Chairman, esteemed members of the Committee, 
my name is Thomas Leeds.
    Appointed in 1994 as the first hearing master in Nevada 
devoting full-time to the Child Support Enforcement Program, I 
became a student of child support issues.
    As one who since that time has heard an average of over 200 
child support cases each week, I also consider myself a 
frontline caseworker in the effort to obtain financial support 
for our Nation's children.
    Without any question, the most significant event impacting 
the collection of child support was passage of the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996, 
commonly known as welfare reform.
    The first and most immediate effect of welfare reform on 
the court system was to make routine enforcement more 
efficient.
    Before passage, simple tasks such as withholding wages to 
pay support, adding a payment for arrears, or ordering genetic 
tests in a paternity case required a motion and a hearing in 
court.
    Due to section 325 of Welfare Reform, those measures can 
now be taken administratively. As a result, time is available 
in court to concentrate on problem cases, including parents who 
claim to be unable to pay support due to unemployment.
    They may be unable, they may be trying to avoid the 
obligation to pay.
    For such a case, first in Clark County, and then also in 
Washoe County, we developed the Employment Assistance Program 
to help parents with children who have received welfare 
assistance find jobs.
    With the help of grant funds from section 391 of Welfare 
Reform, we have expanded the program to include access and 
visitation programs for noncustodial parents.
    This has resulted in two very important developments which 
have increased the payment of support.
    The first development has been to find jobs for unemployed 
noncustodial parents, and you have heard a lot about that 
today.
    In our court program alone, an average of 260 cases per 
month now receive payments as a result of that program. Money 
collected helps families that would not otherwise receive 
support.
    A second important development of the program, however, is 
described by the term smoke out.
    That is, by providing employment assistance, we have 
beenable to smoke out parents who say they are unemployed, but really 
have income.
    A parent, when given an appointment with an employment 
counselor, suddenly admits to working, perhaps, quote, under 
the table, close quote.
    Or a parent never shows up for an appointment with a 
counselor, but suddenly begins paying support. Smoke outs 
increase collections just as unemployed parents who obtain 
jobs.
    I expect similar results from our access and visitation 
program made possible by funds received through section 391 of 
the Welfare Reform Act.
    Many parents complain that they would have paid child 
support, but they weren't able to see their children.
    The access program will help the sincere parent by 
providing a way to sit down with the custodian and discuss the 
barriers and logistics of visitation.
    Availability of mediation, however, will also smoke out the 
parent using failure to see the children as an excuse to avoid 
paying support.
    In either event, more child support will be paid. The 
parent who spends time with the child will be more willing and 
more likely to pay.
    The parents who are smoked out will not be able to fool 
themselves and also be more likely to pay.
    In closing, the Personal Responsibility and Work 
Opportunity Reconciliation Act is a long, but I believe, 
accurate and appropriate title, as it relates to child support 
enforcement.
    In Nevada, by utilizing administrative procedures, and 
combining our existing employment assistance program with the 
grant money for child access and visitation, more parents are 
finding work opportunities, and more parents are assuming 
personal responsibility for their children.
    Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.064
    
    [GRAPHIC] [TIFF OMITTED] T3767A.065
    
  STATEMENT OF MYLA C. FLORENCE, ADMINISTRATOR, NEVADA STATE 
                        WELFARE DIVISION

    Mr. Ensign. Myla?
    Ms. Florence. Thank you, Mr. Chairman.
    Again, Myla Florence, Administrator of the State Welfare 
Division.
    I think the hour is growing long, so I will just quickly 
highlight a couple of things that the Child Support Enforcement 
Program has been, is doing.
    This slide, you can see the continuing escalation of child 
support collections in fiscal year 1998. Nevada collected 
nearly $92 million in child support payments, and this 
represents a 55 percent increase over fiscal year 1994.
    One notable issue is the caseload mix is changing 
significantly.
    Our nonassistance cases are growing, and as a result of 
that, county child support offices have had to add staff to 
meet that growing new population.
    So we urge Congress to continue the financial support to 
the child and support program, and recommend that no changes be 
made in the funding methodology until we have had some time to 
sort out some of the new requirements under PRWORA, such as the 
case registry, central disbursement unit and others.
    One initiative Nevada has undertaken is doing up-front 
orientations of TANF applicants, where we station a child 
support worker in our welfare office to inform the custodial 
parent of the benefit of child support, eliminating the need 
for the person to move from office to office, and make multiple 
applications.
    I am unaware of any other State that has initiated this 
process.
    As Hearing Master Leeds has mentioned, our noncustodial 
employment and training program, implemented in 1997, we 
collected $158,000 in child support payments, serving 662 
individuals during the first year of that program.
    We will see, in fiscal year 1998, $556,000 was collected on 
approximately 2400 cases.
    This is a program that benefited that first family that 
testified here today, where the noncustodial father was 
referred by the court into the employment and training program.
    As Hearing Master Leeds mentioned, the mediation grant 
provided in fiscal year 1998, has served to assist individuals 
who have children out of wedlock and custody issues are 
unresolved.
    This is not only important in bringing child support to the 
child, but having the noncustodial parent again involved with 
that child, which is even as important as collecting the child 
support.
    New-hire reporting was a strong enforcement tool provided 
by Congress. In Clark County over a three-month period, 
employment was identified in approximately 5,000 cases, 
resulting in over $2 million in child support collections.
    So you are to be commended for that initiative, as well.
    Finally, our recommendations with regard to child support, 
continued support for the access and visitation program, and as 
I mentioned earlier, to maintain the existing Federal 
participation in the Child Support Enforcement Program funding.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3767A.066
    
    [GRAPHIC] [TIFF OMITTED] T3767A.067
    
    [GRAPHIC] [TIFF OMITTED] T3767A.068
    
    [GRAPHIC] [TIFF OMITTED] T3767A.069
    
    [GRAPHIC] [TIFF OMITTED] T3767A.070
    
    [GRAPHIC] [TIFF OMITTED] T3767A.071
    
    [GRAPHIC] [TIFF OMITTED] T3767A.072
    
    [GRAPHIC] [TIFF OMITTED] T3767A.073
    
    [GRAPHIC] [TIFF OMITTED] T3767A.074
    
    Mr. Ensign. Thank you both.
    I just have a quick question. As a matter of fact, this 
goes back to one of the first meetings Myla and I had when I 
was first running for office.
    Before I was ever elected, we talked about this computer 
system that was--your big nightmare.
    And I know that the computer is a big part of this 
interstate problem with child support enforcement, and I know 
we did provide some funding for that in the welfare reform 
bill.
    But can you just address where we are with, your computer 
system, and second of all, with how that is going to affect the 
whole child support enforcement, interstate child support 
enforcement?
    Ms. Florence. Well, my testimony didn't touch on this 
subject at all.
    It has been a very difficult situation for us in that 
Nevada was extremely aggressive in, if you recall when we had 
this conversation, developing a fully integrated system that 
not only includes child support functionality, but eligibility 
for all of our other public assistance programs, and developed 
that all as one system.
    Next weekend we will be moving into our first phase one 
pilot, so we are reaching a very important milestone in the 
completion of this project.
    The impact of welfare reform on that system as it was 
designed in 1993, has been considerable.
    So that essentially delayed the ability to roll out the 
child support components of that system while modifications 
needed to be made to the eligibility components of the system.
    At this point, our target is phase two pilot in April of 
1999, and hopefully have the entire system implemented by 
October 1999.
    Some of the new requirements we are looking to build 
outside of that system so that we can meet the new time frames 
that we will be facing.
    Mr. Ensign. Is Nevada going to be facing penalties like 
California is?
    Ms. Florence. Unfortunately, we are.
    Mr. Ensign. Okay. Do you have any questions?
    Chairman Shaw. Yeah. I wanted to go into another area.
    With regard to the collection and recovery of child support 
payments, as you know, the States, all the States have in the 
past really profited from recovering some of the TANF payments, 
or before that, the AFDC payments.
    Now because of the drop and the plummeting of the caseload, 
those recoveries are falling off considerably.
    What has been your experience here in Nevada with that?
    Ms. Florence. We had, I believe, in the written testimony, 
we have had a drop of about 3500 active TANF cases just in the 
past year.
    So as I mentioned earlier, the nonassistance caseload is 
growing in our State, as well as other States, and the public 
assistance caseload has dropped dramatically.
    Again, that is why I recommend that we not change the 
funding structure for child support until all of these issues 
are better discerned.
    Particularly in October of 1998, when individuals not even 
requesting services will be referred to the 4D program through 
orders.
    So we are seeing reduced collections or retained 
collections by the State, not only due to the dropping 
caseload, but by returning a greater portion of those 
collections to families first, as well.
    Chairman Shaw. Thank you.
    Mr. Ensign. Mr. Leeds, you know, the parents that are, 
quote, unemployed, unquote, some of them not, and they are 
coming in, what percentage are you actually getting jobs?
    Mr. Leeds. Well, just using very rough statistics, because 
I don't have access to the official statistics, it looks like, 
of the people that I referred to the program, about a quarter 
or more start having paying cases.
    And I look on that as quite a success because there are a 
certain percentage, again, with the robust economy in Las 
Vegas, we are dealing with the very problem population.
    There are some people that just are not going to get 
motivated the first time they are referred. So there is that 
amount.
    But then if you look at it positively, that is because of 
the problem population. When I said 260 cases per month, really 
and in a very literal sense there are 260 families that would 
not be receiving money but for the program, either because they 
have been able to find a job, or because of being brought out 
of the closet, and starting to pay when faced with referral to 
the program.
    Mr. Ensign. Okay. Can you, we have had--I had a meeting, I 
think last week in my office in Reno, the interstate is still a 
big frustration.
    I guess, where do we see that going, you know? How long 
before States are actually able to communicate with each other?
    Mr. Leeds. I was telling Mr. Hoskins that since January, 
when all States passed the Uniform Interstate Family Support 
Act which was a requirement of welfare reform, I have seen a 
very smooth transition.
    I have conducted myself a number of tribunal to tribunal 
communications, and one of the big differences is when a 
hearing master calls another State, you have a better chance of 
getting the phone call returned.
    And so we have been able to help people through the maze of 
systems to get problems solved.
    Mr. Ensign. So when I have people call my office here, I 
now know who to call, okay? Call this person. You will have a 
better chance of getting it done, because we get a lot of those 
calls.
    Mr. Leeds. Believe me, I think a little personal service, 
customer service from my office, goes a long way, and we are 
also, by every time I talk to a tribunal, they realize there 
are human beings on the other side of their phone line, as 
well. So I think that has been very successful.
    The second thing I think, which we haven't seen yet, but 
hopefully will see in the near future is this Federal case 
registry.
    As the States come on board and start reporting the new-
hire reports from their State's registries to the Federal 
registry, I am hoping that that is going to increase our 
interstate efficiency.
    Mr. Ensign. Well, I want to thank you, you and the rest of 
the panelists.
    It has been an excellent morning of testimony, and I 
certainly have learned a lot, and I hope that the Chairman has 
enjoyed his stay here in Nevada.
    He got to stay up at Lake Tahoe the last couple of days 
with his wife celebrating their anniversary, so I know you have 
enjoyed that, and I want to thank you.
    And my colleague, Congressman Christensen, thanks for 
coming out here to our State to actually hear some real 
testimony from people that are actually on the front lines, and 
especially those whose lives have been changed by our welfare 
reform bill.
    Ms. Florence. Thank you.
    Mr. Leeds. Thank you.
    Chairman Shaw. John, I want to thank you for suggesting 
that we come out here.
    I can tell you we have many hearings in Washington. A lot 
of times I think we have too many hearings, but I can tell you 
that when you get out into the people and talk to the people 
and get into States such as Nevada and find out exactly the 
people that are really doing the heavy lifting and the work 
making these programs work, it really makes you very proud.
    And I can tell you, John, this is one of the best hearings 
that I think we have ever had. I have certainly learned a lot, 
and it really buoys me to find that welfare reform is working 
the way it is.
    And when you see the people that are making it work, you 
understand why it is working.
    Mr. Christensen. I would concur with the Chairman. I 
enjoyed my stay last night at the Best Western across the 
street.
    Mr. Ensign. You can see when you get a little seniority 
what happens.
    We take care of the Chairman, I guess, a little better 
around here. Thank you all for attending.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]

                                <greek-d>

</pre></body></html>
